<html>
<title> - [H.A.S.C. No. 115-33] CONSEQUENCES TO THE MILITARY OF A CONTINUING RESOLUTION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 115-33]

        CONSEQUENCES TO THE MILITARY OF A CONTINUING RESOLUTION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 5, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE 
25-149 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------




                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Goldfein, Gen David L., USAF, Chief of Staff of the Air Force....     7
Milley, GEN Mark A., USA, Chief of Staff of the Army.............     4
Neller, Gen Robert B., USMC, Commandant of the Marine Corps......    10
Richardson, ADM John M., USN, Chief of Naval Operations..........     5

                                APPENDIX

Prepared Statements:

    Goldfein, Gen David L........................................    69
    Milley, GEN Mark A...........................................    60
    Neller, Gen Robert B.........................................    76
    Richardson, ADM John M.......................................    65
    Smith, Hon. Adam.............................................    58
    Thornberry, Hon. William M. ``Mac''..........................    57

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................    87
        
        
        CONSEQUENCES TO THE MILITARY OF A CONTINUING RESOLUTION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, April 5, 2017.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    After having explored the next steps of defense reform in 
yesterday's hearing, we now turn to what is needed to repair 
and rebuild our military. And I am grateful to each of the 
distinguished service chiefs for being with us today.
    There is widespread agreement that funding cuts under the 
Budget Control Act, plus a series of continuing resolutions, 
coupled with the pace of required deployments have damaged the 
U.S. military. I believe that damage has gone far deeper than 
most of us realize, requiring more time and more money to 
repair than is generally expected. There is plenty of 
responsibility to go around for the current state of affairs, 
with both Congress and the Obama administration, with both 
Republicans and Democrats, with both military and civilian 
leadership.
    Among other problems, defense funding has gotten caught up 
in partisan back-and-forth on other issues and has even been 
held hostage to other priorities. We need to get back to 
evaluating defense needs on their own without regard to any 
agreement or disagreement we may have on other issues. The men 
and women who serve deserve at least that.
    The most important thing now is to repair the damage. We 
have the chance to begin doing so by passing a full 
appropriation bill for this year, acting favorably upon the 
supplemental request, and then enacting adequate authorization 
and appropriations for fiscal year 2018.
    The immediate issue before us is the expiration of the 
current continuing resolution on April 28th. We in the House 
passed a full appropriation bill for fiscal year 2017 on March 
8th by a vote of 371 to 48. The Senate has not yet acted on it. 
As I have said before, I will not vote for a defense continuing 
resolution for the rest of fiscal year 2017. It would simply do 
too much harm.
    Fundamental to fixing a problem is to expose it and 
understand it. I understand that we have to be cautious about 
exposing our vulnerabilities, but in order to do better for the 
military and for the country, we must have the best 
professional military judgment our witnesses today can offer on 
the current state of our military forces, and on what a CR 
[continuing resolution] or inadequate funding would mean for 
them. To get on a better track, we all have to be clear and 
candid with the American people. And that is exactly the 
purpose of today's hearing.
    Mr. Smith.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 57.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And I agree with much 
of what the chairman had to say.
    I mean, certainly over the course of the last 6-plus years, 
you know, the uncertainty that has accompanied the defense 
budget has made it very, very difficult to operate. We have had 
one government shutdown, countless threatened government 
shutdowns, and numerous CRs. And I think most people don't 
appreciate what a CR means; they just say, well, you are just 
continuing the budget.
    A CR basically means you can't start new programs, you 
can't end programs that need to be ended, and as importantly, a 
lot of times you are not really sure what qualifies as which. 
All of you have to go through a very difficult task when we 
don't have a regular appropriations bill of figuring out 
exactly what you can and cannot spend money on, and that is a 
colossal waste of your time and also very expensive. We should 
give you a clear budget, every year, clear appropriations to 
give you the freedom to implement that as is necessary. We have 
not done that.
    And I agree with the chairman, there is plenty of blame to 
go around on that front. But the lack of budget clarity has 
caused no end of problems. I also agree that the force has been 
unquestionably been stressed over the course of the last 15 
years, certainly with two major wars in Afghanistan and Iraq 
and then the ongoing struggle against extremism all across the 
world.
    Our military has been given a large number of assignments, 
and couple that with the inadequate, well, with the 
unpredictable number of resources and you--you have a problem. 
I think there is a larger thing that we need to get at, and I 
agree with the chairman again that we need an appropriations 
bill, and we need to fund the military to meet the mission.
    I don't agree that we can somehow pull defense out of the 
entire rest of the Federal Government, look at it totally 
separately as if all the other money that we spend in the 
government doesn't matter. Because unfortunately, we do have 
other priorities than just national security, some of which are 
really rather important. In fact, some of them have to do with 
security--the intelligence budget, the Department of Homeland 
Security; but also our infrastructure, which is crumbling at an 
alarming rate and it regrettably is a tradeoff.
    And I think the budget that President Trump sent up this 
year makes that absolutely clear. He plussed up defense by $54 
billion and he took the $54 billion out of everything else, 
including a 31 percent cut in the State Department. And as the 
Secretary of Defense, General Mattis, said, if you are going to 
cut the State Department, and if you are going to cut 
development aid, then you better give me five more divisions 
because I am going to have a lot of wars to fight. It is all of 
a piece.
    As much as I would love on this committee to be able to 
pull defense out and say we can ignore everything else, we 
aren't just members of the defense committee--we are Members of 
Congress, and we are responsible for all of that. Towards that 
end I will make one final point.
    As we look at how we put together a defense budget, I agree 
with the chairman: we should not give the men and women who 
serve in the military tasks and assignments that we do not 
equip and train them to do. That is where we are at right now; 
that is completely and totally unacceptable.
    I do not, however, agree that the answer is to simply 
continue to expand what those tasks and responsibilities should 
be and kind of hope that we somehow come up with more money to 
meet it because the tasks and responsibilities that have been 
described by the President and what he says he wants the 
military to do. He sent up a $603 billion dollar budget that 
doesn't even come close to meeting those tasks and 
responsibilities that are outlined. Even the $640 billion that 
the chairman here and the chairman of the Senate Armed Services 
Committee have talked about doesn't come close to meeting that, 
either.
    So what we also need to do, in addition to rightly pointing 
out the lack of resources and the unpredictability, is come up 
with a set of tasks and missions for the Department of Defense, 
for the men and women who serve in the armed services, that we 
can actually fund.
    We cannot continue to say, well, you got to do this, got to 
do this. We don't have money, we don't have the money, we 
should have the money, we don't have the money, we should have 
the money. We know where our budget is at. We know that we are 
$20 trillion in debt, that we are running a deficit in excess 
of $600 billion, and that there are other needs in our budget.
    So I think we also have to be really smart about how we 
spend the money in defense and about what missions we decide 
our men and women should be ready, trained, and equipped to 
serve.
    So I hope that is part of the discussion as well this 
morning. I look forward to your testimony, and I thank you all 
for your service.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 58.]
    The Chairman. We are pleased to welcome this morning 
General Mark Milley, Chief of Staff of the Army; Admiral John 
Richardson, Chief of Naval Operations; General David Goldfein, 
Chief of Staff of the Air Force; and General Robert Neller, 
Commandant of the Marine Corps.
    Without objection, your full written statements will be 
made part of the record.
    And let me just say, again, how much I appreciate each of 
you being here. I know you have a lot of responsibilities on 
your shoulders. I know, for example, the Commandant came back a 
day early from an overseas trip. But I believe the opportunity 
to get funding for the military on a better track deserves all 
of our careful attention and discussion. Again, that is the 
purpose of today's hearing. Thank you all for being here.
    General Milley, we would be pleased to turn to you for any 
oral statement you would like to make.

  STATEMENT OF GEN MARK A. MILLEY, USA, CHIEF OF STAFF OF THE 
                              ARMY

    General Milley. Thanks, Chairman Thornberry and Ranking 
Member Smith and all the distinguished members of the 
committee, for the opportunity before you today. I appreciate 
that, and I know we all do.
    The world is becoming a more dangerous place, with 
simultaneous challenges to the United States interests from 
Russia, China, Iran, a rapidly growing threat from North Korea, 
and an ongoing series of wars against terrorists. This is no 
time, in my professional view, to increase risk to our national 
security. A yearlong CR or return to the BCA [Budget Control 
Act] funding will do just that. It will increase risk to the 
Nation and will ultimately result in dead Americans on a future 
battlefield.
    To execute current operations, sustain readiness while 
making progress toward a more capable and lethal future, the 
United States Army requires, most importantly, predictable and 
consistent funding. The lack of fiscal year 2017 appropriations 
and no supplemental increase in funding will significantly and 
negatively impact readiness and increase risk to our force.
    Additionally, a return to budget caps due to BCA 
sequestration in fiscal year 2018 forces the Army to reverse 
our efforts to improve readiness and will lead to a hollow 
Army. In the last 2 years, we have made steady progress in our 
core warfighting skills across multiple types of units. But we 
have much work to do to achieve full-spectrum readiness 
necessary to meet the demands of our National Military Strategy 
and the Defense Planning Guidance.
    Advances by our adversaries are real, and the cumulative 
effect of persistent and destructive budget instability for 8 
consecutive years is increasing risk, not only to the Army, but 
to the Nation, and will result in unnecessary U.S. casualties. 
Readiness to prevent or, if necessary, fight and win wars is a 
very, very expensive proposition. But the cost of preparation 
is always far less than the cost, the pain, the blood, and the 
sacrifice of regret.
    Readiness is the Army's number one priority. Our current 
readiness funding requirement is submitted in the amendment to 
the fiscal year 2017 President's budget is $3 billion above 
fiscal year 2016's operations and maintenance levels. Our 
planning efforts for fiscal year 2017 request for additional 
appropriations centered on filling critical gaps in readiness, 
specifically in armor, air defense, field artillery, and 
aviation.
    If forced to operate under a yearlong CR, this will not 
happen and Army current readiness and efforts to close critical 
gaps will be severely impacted. Funding under a CR for a year 
will result in a dramatic decrease in training starting next 
month in May and by 15 July all Army training will cease, 
except those units deploying to Afghanistan or Iraq.
    Our CTC [Combat Training Center], collective training 
exercises, at NTC [National Training Center] and JRTC [Joint 
Readiness Training Center] will be significantly degraded and 
all efforts to increase Army end strength, as mandated in the 
fiscal year 2017 National Defense Authorization Act by you for 
the Regular Army, the National Guard, and the Army Reserve will 
also cease. The cumulative effect of training shortfalls, 
combined with personnel constraints, will result in an Army 
that is less ready to meet not only current requirements of 
combatant commanders, but limit our ability to assure our 
allies, deter our adversaries, now and in the future.
    Also, procurement efforts currently on hold will remain on 
hold, preventing the Army from immediately addressing known 
shortfalls and gaps in combat systems, and importantly in 
munitions, electronic warfare, cyber programs, air and missile 
defense, long-range fires, protection and mobility programs, 
along with several other modernization initiatives. We will 
lose our current overmatch.
    The current battlefield is already very lethal, and a 
future battlefield will likely prove far more lethal than 
anything we have recently experienced. Our adversaries have 
studied us and are rapidly leveraging available technology 
while the Army has yet to fully recover from the effects of the 
shutdown in 2013. Time is not our ally. A return to the BCA 
caps will damage the Army's ability to build and maintain 
readiness at appropriate levels and result in multiple years of 
negative impacts on the future of our Army.
    While we cannot forecast precisely when and where the next 
contingency will arise, it is very likely to require a 
significant commitment of U.S. Army ground forces. Sustaining 
high levels of performance that your Army has demonstrated in 
the face of increasing challenges requires consistent, long-
term, balanced, and predictable funding. A yearlong continuing 
resolution or return to BCA funding caps absolutely will result 
in a U.S. Army that is outranged, outgunned, and outdated 
against potential adversaries.
    With your support, however, in passing the fiscal year 2017 
budget and the supplemental, the Army will fund readiness at 
sufficient levels to meet current demand, build readiness for 
contingencies, and invest in the future force.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of General Milley can be found in 
the Appendix on page 60.]
    The Chairman. Admiral Richardson.

   STATEMENT OF ADM JOHN M. RICHARDSON, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Richardson. Thank you, Mr. Chairman, Ranking Member 
Smith, and distinguished members of the committee for the 
opportunity to discuss the impacts that another continuing 
resolution--in fact, just to leverage General Milley's 
statement--continuing uncertain and inadequate funding levels 
would do to the Navy.
    And two points I just want to clarify and clearly convey 
right off the top is that, Mr. Chairman, we need that fiscal 
year 2017 bill and the supplemental in order to keep Navy 
programs and key investments moving forward, to recover 
readiness this year, prevent digging the readiness hole deeper, 
and to sustain it into the near future.
    There is a growing gap between the missions that we are 
asking our Navy to do and the unreliability and shortage of the 
resources provided to do those missions, as Ranking Member 
Smith highlighted. We got to where we are today because of 15 
years of operating at wartime pace. The Eisenhower Strike Group 
has deployed five times in the last 7 years.
    Contrast that level of effort with 8 years of continuing 
resolutions and 5 years of budget restrictions imposed by the 
Budget Control Act and the Balanced Budget Acts. This gap 
creates years of stress over and above the inherent stress of 
deployed operations. And the Navy team, in fact, the joint 
service team, the joint force team, sailors, civilians, and 
their families, have been absorbing that stress.
    And so in the simplest possible terms as I speak to you 
today, if we don't get the funding just described, lots of our 
aviators will not fly and they can't train. We won't have the 
spares to fix their planes; we won't have the gas to fly them. 
We may not have the pay to keep our pilots in the services. And 
we won't have ready aircraft for tomorrow's pilots.
    Lots of sailors will not go to sea. We can't afford the 
maintenance to fix their ships, can't afford the gas to steam 
them. And ships will remain tied up to the pier. In many ways 
this is irreversible. You can't get lost training time back; we 
will be less proficient when we do go to sea, when we do fly. 
Our pilots will be less experienced, which is a daunting fact 
when you consider what we are asking them in wartime. Our 
sailors will have less time at sea to practice together, to 
train together, and to achieve the intricate teamwork needed to 
win in modern warfare.
    And the stress doesn't stop when they return to homeport. 
Current funding without the fiscal year 2017 bill and the 
supplemental will only allow for 1-month's notice before they 
move their families, placing a huge burden on their families 
and especially those with children. And we will continue to ask 
our people to work in substandard conditions in over 6,000 
buildings in dismal condition awaiting repair, replacement, or 
demolition.
    At the unit level, we will have to shut down air wings in 
the short term. And in the long term, the shortage of airplanes 
will get worse. We will delay important upgrades that help us 
keep pace with the threat. These delays or cancellations will 
put sailors at greater risk from cyberattacks, with the growing 
threat of anti-ship missiles in the areas that they routinely 
operate. Submarines will lose their certification to dive. 
Ships will be at the pier instead of underway.
    Failing to maintain our equipment has the same net effect 
as cutting force structure; whether we leave a ship tied up to 
the pier because it is not repaired or we decide not to build a 
new ship, both mean one less ship at sea. Not being able to fly 
an existing aircraft or not buying a new aircraft both mean one 
less plane in the air. As the general said, this is not a 
theoretical debate. While we talk about whether or not to keep 
ships in port and aircraft on the ground, our competitors are 
making steady progress and gaining on us.
    America's risks are getting worse as other nations grow 
their fleet and operate them in the Pacific, Atlantic, Indian, 
and Arctic Oceans. As they extend their influence over trade 
routes that are the lifeblood of the international economy, 
including ours.
    I just got back from Rota, Spain, where I saw our sailors 
in action. We visited the USS Ross who is now in the 
increasingly contested waters of the Eastern Mediterranean. 
Those sailors know clearly that they are sailing into harm's 
way, but they took an oath to support and defend the 
Constitution and they live up to that commitment every day, 
undaunted by the competition I just described. And their 
teammates do this every day all around the world. They are 
tough, dedicated, and proud of what they do.
    Back here at home, there is less evidence that we get it. 
There is tangible lack of urgency; we are not doing what we 
should to help them win. In fact, we are here today to discuss 
plans, potential plans, that would make their lives harder, 
that will further shrink their advantage.
    So, Chairman, I urge Congress to pass the fiscal year 2017 
bill and give favorable consideration to the supplemental. It 
will make us more ready, more competitive, and relieve a lot of 
stress that is on our people. Together, we can find ways to 
maintain our edge. There is so much at stake.
    Thank you for the chance to testify, and I look forward to 
your questions.
    [The prepared statement of Admiral Richardson can be found 
in the Appendix on page 65.]
    The Chairman. General Goldfein.

STATEMENT OF GEN DAVID L. GOLDFEIN, USAF, CHIEF OF STAFF OF THE 
                           AIR FORCE

    General Goldfein. Thank you, Chairman Thornberry, Ranking 
Member Smith, distinguished members of the committee for 
hosting this critically important and timely hearing. It is a 
privilege to be here with my fellow Joint Chiefs.
    Your Air Force is globally engaged both here in the 
homeland and deployed to capture and control the high ground as 
we provide global vigilance, global reach, and global power for 
America and our allies. As the service with the most diverse 
portfolio of missions, operating from the outer reaches of 
space, to 100 feet below the surface and everywhere in between, 
we are involved in some way in every mission the joint force 
performs. Put simply, your Air Force is always there.
    Our responsibility begins in the nuclear enterprise as we 
ensure the bomber and missile legs of the triad remains safe, 
secure, and reliable, and on our worst day as a nation we 
ensure the Commander in Chief is where he needs to be when he 
needs to be there and that he remains connected to our Air 
Force and naval nuclear forces who stand watch for America and 
our allies.
    In space, your airmen fly and maintain 12 constellations 
that provide critical intelligence, protected communications, 
nuclear command and control, and GPS [Global Positioning 
Satellite] for the joint team and for the globe. When China 
launched its anti-satellite missile in 2007, creating a debris 
field over 300,000 particles, space became both a contested and 
a congested place, and it is the responsibility of your Air 
Force to organize, train, equip, and present the preponderance 
of ready space forces to combatant commanders to fight should a 
war either start or extend into space.
    In the cyber domain, airmen join their fellow soldiers, 
sailors, and Marines to defend the Nation and develop tactics, 
techniques, and procedures to produce strategic effects in this 
new and critical warfighting domain. Just 16 years ago, we had 
a single remotely powered aircraft in test. Today your Air 
Force delivers 60 lines of armed reconnaissance along with 
high-altitude capabilities that provide an unblinking eye on 
our adversaries.
    If you heard jet noise this morning driving to the Capitol, 
it was likely the F-16s from the 113th Air National Guard Wing 
at Andrews who sit on alert to defend this city, just as we do 
across the Nation to defend our homeland from attack. And I 
learned just walking in this morning that we lost an F-16 from 
that wing this morning. And I am proud to say that at least the 
news reports are telling us the pilot got out and he is okay. 
These are just some of the missions we perform here.
    Simultaneously, airmen are operating forward in over 175 
locations to assure allies and partners, deter adversaries, 
shape the environment, and respond to crises. Job one for our 
deployed force is to gain and maintain air superiority, which 
we define as freedom from attack and freedom to maneuver.
    When a soldier, sailor, airman, Marine, or coastguardsman 
hears jet noise, I don't ever want them to look up. I want them 
to know it is me. This is sacred duty for an airman. Once we 
establish air superiority, your Air Force provides unmatched 
global reach with an aircraft taking off or landing every 3 
minutes delivering critical personnel or supplies where and 
when they are needed. And we sometimes operate out of locations 
that are in insecure areas. And it is our special forces, air 
commandos, who are trained to secure airfields when and where 
we need them in places like Qayyarah West in Iraq.
    And when it comes to global precision strike, I call your 
attention to the January raid where a pair of B-2 bombers 
departed their home base in Missouri for a 32-hour round trip 
sortie to Libya. These stealth bomber crews, refueled by 13 
different tankers, delivered 85 bombs over 2 terrorist camps, 
delivering precise legal effects within 10 seconds. And I 
repeat, 32-hour mission, within 10 seconds of their designated 
time over target.
    And in the counter-ISIS [Islamic State of Iraq and Syria] 
fight, Lieutenant General Jeff Herigian, the air component 
commander, leads a coalition of 16 nations in the fight to 
defeat violent extremism in the Middle East. In the current 
fight against ISIS, coalition partners have dropped over 40,000 
munitions on our enemy with the vast majority coming from 
United States Air Force.
    For our enemy, ``always there'' has a different meaning. 
General Hap Arnold, who led the air effort during World War II, 
stated during the worst days of the daylight bombing campaign, 
``The problem with air power is we make it look too easy.'' The 
truth is anything but. Today's Air Force is the smallest, 
oldest, and least ready in its history. We have and will 
continue to fly, fight, and win, but at a cost to our airmen 
and their families who remain globally engaged.
    Chairman, it is fitting that we are having this hearing on 
Gold Star Spouse Day as a reminder of how vital our families 
are to our mission. For 26 years of continuous conflict, 
starting with Operation Desert Storm through Operations 
Northern and Southern Watch, Deliberate and Allied Force in the 
Balkans, Odyssey Dawn in Libya, and the current fights in 
Afghanistan, Iraq, and Syria, they have remained faithful to 
our cause. So it is unfortunate that we are now discussing the 
potential of yet another extended continuing resolution, which, 
as has already been said, is the equivalent of a mini 
sequestration round which we have already been through before. 
You see, in the Air Force we still haven't recovered from round 
one.
    Failing to pass an appropriations bill will cost the Air 
Force $2.8 billion in the remaining 5 months of 2017. Here are 
just two of the direct impacts to our most important resource, 
our airmen and their families, of failing to pass a budget. We 
will stop flying in late June when the money runs out; so only 
squadrons in the fight or preparing to go to the fight will 
train. By the end of this year, we will be short 1,000 fighter 
pilots.
    Chairman, it takes approximately 10 years and $10 million 
to train a fighter pilot. One thousand short equates to $10 
billion of capital investment that walked out the door, and it 
will take us 10 years to replace that experience. Of all the 
things that we can do to retain pilots, the most important is 
to get them airborne. Pilots who don't fly, maintainers who 
don't maintain, air traffic controllers that don't control, 
leave. And while we will never buy our way out of this 
shortage, an extended CR will also negate the pilot bonuses 
Congress authorized, which will break faith with the force.
    In addition, over 2,000 young men and women have signed up 
to serve in the long blue line who will not be allowed to enter 
the service until we get an appropriation. They represent the 
greatest treasure in our Nation's arsenal. They come from each 
of your districts. They have given up jobs, left home, made 
plans, all to be told they will have to wait now for months to 
pursue their dream. How many of these talented young men and 
women won't wait and will choose an alternative path when we 
desperately need to grow our force in fiscal year 2017?
    As a service chief I have many obligations, but one remains 
paramount. Every airman we send into harm's way must be 
properly organized, trained and equipped, and led to succeed in 
their mission. And we must take care of their families while 
they are gone. This is our moral obligation. A yearlong CR 
makes meeting this obligation extremely difficult.
    Mr. Chairman, Ranking Member, distinguished members of this 
committee, the demand for air and space superiority has never 
been higher. With it, we win; without it, we lose. We look 
forward to working with you in the weeks ahead to pass a budget 
and thank you again for holding this critically important 
hearing. I look forward to your questions.
    [The prepared statement of General Goldfein can be found in 
the Appendix on page 69.]
    The Chairman. General Neller.

  STATEMENT OF GEN ROBERT B. NELLER, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Neller. Chairman Thornberry, Ranking Member Smith, 
members of the committee, I will be brief so we can get to your 
questions.
    First, let me fully endorse the comments of my fellow 
chiefs. And second, I think it is important to remember that 
the readiness of our respective services are inextricably 
linked. The fleet doesn't sail, Marines don't get to sea; the 
Army can't train, we can't train with them; the Air Force can't 
fly, we can't move around the world. So none of us can do 
anything by ourselves. So our readiness of our respective 
forces are part of that of the joint force.
    Marines have a unique perspective on readiness based on the 
direction of the Congress as the Nation's force in readiness. 
Being ready is central to our identity. So the bottom line is 
this: operating under a full-year continuing resolution through 
the remainder of this fiscal year will seriously degrade 
readiness across the force and have adverse effects on future 
readiness.
    Specifically, we will cease CONUS [continental United 
States]-based flight operations in late July or early August 
with the exception of those squadrons getting ready to deploy. 
Lack of funding will slow, halt, or potentially reverse hard-
earned material readiness recovery efforts across the force. It 
will slow the acquisition of critical systems and delay the 
construction of much needed amphibious warships.
    The scope and scale of our training will be significantly 
reduced, impacting service level pre-deployment training such 
as the integrated training exercise at Twentynine Palms, which 
is our key event for certification before deployment.
    Other events, large multilateral and multinational 
exercises such as Bold Alligator at Camp Lejeune or our cold-
weather training in Norway, Cold Response, will also be 
degraded. And we will be challenged to recover from these 
training gaps, because once you lose a training you can't get 
it back. You can't get it back because there is another unit in 
the queue ready to go. And if you miss it, you are not going to 
get another turn.
    As Representative Smith mentioned, the global security 
environment drives the requirements which determine our 
operational commitments. Your Marines are as busy now as they 
were during the height of operations in Iraq and Afghanistan. 
Just this morning, I returned from visiting Marines and our 
joint and coalition partners forward deployed in the Republic 
of Korea and Japan. I assure you that the forward-deployed 
force is engaged around the globe in support of not only PACOM 
[U.S. Pacific Command], but all combatant commanders and is 
ready to go.
    Our current operational tempo, combined against fiscal 
reductions, the instability of these CRs, and the lasting 
impacts of sequestration, continue to make us make hard choices 
that prioritize support to the operational forces above many 
other resource requirements.
    The priority has and will continue to go to deployed and 
the next-to-deploy units. But that results in readiness 
shortfalls in aviation facilities, sustainment, modernization, 
retention of critical skills, and the depth and readiness of 
our ready bench. Working with our Congress and our chiefs and 
the Department of Defense, and the chairman and the Secretary, 
I assure you, the Marine Corps make the most of those resources 
we are provided, and that Marines will meet the high standards 
of the Congress and the American people, regardless.
    I look forward to your questions.
    [The prepared statement of General Neller can be found in 
the Appendix on page 76.]
    The Chairman. Let me ask each of you to address a 
relatively simple question. Why is it different now? As Admiral 
Richardson and Mr. Smith mentioned, we have had 8 years of CRs, 
5 years of the Budget Control Act. You know, to most people, 
they look and say, well, we are still bombing ISIS. You know, 
we are getting by. We are doing what needs to be done. And yet, 
each of you has painted a pretty dire picture of where we are 
and especially where we would be under a CR or without a 
supplemental.
    So, again, I guess my basic question is, why is it 
different now?
    General Milley.
    General Milley. In my view, it is the cumulative effect. We 
have been doing CRs now for 8 years, shutdown in 2013. It is a 
cumulative effect on the personnel. We have reduced the Army by 
80,000 or 90,000 soldiers in the last 8 years. We have taken 
out 17 brigade combat teams. We still have 180,000 soldiers 
today deployed in under 40 countries around the world. We are 
still actively engaged in terms of OPTEMPO [operational tempo] 
and combat operations in Afghanistan, Iraq, Syria, Yemen, 
Libya, Central Africa, West Africa, and several other places.
    Roughly speaking, I just got back from the Middle East last 
week, 80 percent of those forces that you see on the ground in 
those countries are Army forces. It is the cumulative effect of 
all of these years.
    And, by the way, it is not just fighting in Iraq and 
Afghanistan. There are other potential contingencies on the 
horizon. We saw that yesterday morning with the launching of a 
nuclear missile, or not a nuclear missile, but a missile from 
North Korea that landed in the Sea of Japan. I have no idea and 
neither does anybody in this room where all that leads. We must 
be ready. It is the cumulative effect.
    Chairman, if I were to draw an analogy, it would be like 
smoking cigarettes. One cigarette is not going to kill you. But 
you do that for 8, 10, 20 years, 30 years, you are eventually 
going to die of lung cancer. It is the cumulative effect over 
time that is really devastating and the seesaw effect of money 
in and money out.
    And also, we can't invest in modernization because industry 
has to have predictable funding and we can't do that. It is a 
very--not only is it negative on immediate readiness it is 
devastating on future modernization because we can't get out in 
front of it and it is much more expensive when you can't do 
multiyear contracts--it is very expensive. It is an 
inefficient, ineffective way of doing the budget.
    The Chairman. Admiral.
    Admiral Richardson. Mr. Chairman, I would pile on top of 
everything that General Milley said. It is the cumulative 
effect of this triple whammy of the operational pace against 
fighting violent extremism; contrast that against the 
uncertainty of the budget and the budgetary levels.
    We always, all of us, strive to send our forces forward, 
fully ready into those fights so that they are fully prepared 
for any contingency that comes their way, but that has come at 
the cost of readiness back home and those reinforcement forces, 
those surge forces that would flow into the fight if we had a 
major contingency, as the general highlighted.
    I would also say that one thing, in my mind, that has 
characterized the discussion is it is very internally focused 
and it is not just us that have been operating in the world in 
the last 10 years. So if we had this conversation 8 years ago, 
in the intervening 8 years, China has completely modernized 
their fleet and they are operating, not just around their 
shores, but around the world now. Russia was actually 
considered an ally at that time. We were exercising with 
Russia, and now it is a much different picture.
    The general mentioned North Korea and Iran. These 
competitors have also grown in these last intervening 8 years, 
and so the relative balance has shifted. So it is a combination 
of our internal effects, the stress of 10 years of combat 
operations, 15 years, contrasted against the funding 
instability and levels. But it is also our competitors that 
have been making significant gains during those 8 years.
    The Chairman. General Goldfein.
    General Goldfein. Sir, that is really, you know, let me 
build on Admiral Richardson's comments because the reality is 
the world changed in 2014. If you go back to prior to 2014 and 
look at our posture and the collective assumptions we were 
making, both within Congress and the executive branch, we were 
out of Iraq, we were coming down in Afghanistan and in a single 
year the world changed for us. Russia went into Crimea and got 
active in Ukraine. China started militarizing islands in the 
South China Sea. We had ISIS and we went back into Iraq. And 
you may remember we had this thing called Ebola that happened 
during 2014.
    And while we may now all look back on that as not that big 
a deal, as we were going through it, you might recall that we 
weren't sure whether we were facing the plague of the 21st 
century. All that happened in a single year.
    So the world changed. And so the assumptions that we had 
made in terms of strategic trades that we make because for, as 
service chiefs, you know, what we do is we look at trying to 
balancing capability, capacity, and readiness. And we make 
strategic trades based on our assumptions of the global 
security environment. And so to your question of, what is 
different now? The world is different now.
    The Chairman. Thank you.
    Commandant.
    General Neller. Chairman, on 9/11 there were 172,500 
Marines and we deployed at a rate of 3:1. We were home for 18 
months and we were gone for 6 and the gear we had was the gear 
we had from the 1980s buildup; it was only 16, 15, 12 years 
old.
    You go to Camp Lejeune or Camp Pendleton today, you drive 
around, that is the same stuff we are driving today. It has 
been modified, been re-engineered. It has been through the 
depot. Still flying the same F-18s; we got one squadron F-35s. 
We replaced CH-46s with MV-22s. We are flying the same 53s [CH-
53s]. We are starting to get at replacing the Hueys and Cobras. 
The force now deploys at a rate of 2:1. I mean, we have to 
recapitalize this force.
    We fought a fight against an insurgent and 
counterinsurgency stability op. And as my fellow chief said, 
the game has changed. We weren't talking about ``four plus 
one'' <dagger> even 5, 6 years ago. And all their stuff is new. 
And we need to have our stuff modernized. And we have to change 
our training. And we can do all that. We can do all that. And 
we are in the process of doing that.
---------------------------------------------------------------------------
    <dagger> Reference to the primary security challenges for the 
United States being Russia, China, Iran, North Korea, plus terrorism.
---------------------------------------------------------------------------
    But we need to have the stability of a known funding stream 
so that we can get the best price for modern gear, that we can 
plan our training, that we know we are going to go, and we know 
we are going to get a ride either on an airplane or a ship. And 
our allies know they are going to be able to show up and we are 
going to be there to train with them. And this potentially puts 
all that at risk.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I actually have no 
questions. I have had the opportunity to speak with these 
gentlemen on a number of occasions, so I will let Mrs. Davis 
take the first questions for our side.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all very much for your service and for being 
here today.
    You know, you make a very good case, and I think we are all 
with you in understanding the difficulties, the challenges that 
you face. But I am also wondering, you know, here we are. It is 
April; we haven't passed last year's budget yet. In many ways, 
as you say, we are dealing with a continuing CR, which, in many 
ways, is almost the norm. And so, what is it that we should be 
looking at doing? Are there different metrics when it comes to 
readiness and setting priorities that suggest that we actually 
have to adapt to this kind of situation and still accomplish 
the mission?
    What do you think needs to be done differently at all if 
this is the new normal?
    General Milley. I don't accept that----
    Mrs. Davis. I am not suggesting that I like the new norm.
    General Milley. I don't accept it as a new normal, 
Congresswoman. I think, candidly, failure to pass a budget, in 
my view, as both an American citizen and the Chief of Staff of 
United States Army, constitutes professional malpractice. I 
don't think we should accept it as the new normal.
    I think we should pass it and pass the supplemental with it 
and get on with it. The world is a dangerous place and is 
becoming more dangerous by the day. Pass the budget.
    Admiral Richardson. Ma'am, here is what this new normal 
would mean. It would mean trying to run a mile race and giving 
the competition a lap head start. You have got to run very fast 
if you are going to win that race and we are just not fast. So, 
I mean, that is what you buy into if you accept this as a new 
normal. I couldn't agree with the chief more.
    General Goldfein. Ma'am, I will just use this as an 
opportunity just to remind us in terms of what I think you 
expect from us as Joint Chiefs. And that is, I think you need 
from us our best military advice on what we think we need to be 
able to perform the missions that we are being given. And until 
those missions change, what we will continue to tell you is 
what the force requires.
    So the resistance you are getting from us relative to 
setting some kind of a new normal is that the missions haven't 
changed. And so what you won't hear from us is anything but 
here is what is required to do those missions which we have 
been given to defend this Nation and to do those missions as 
required both here in the homeland and abroad.
    General Neller. I think we have adapted, otherwise we 
wouldn't be able to do the things that we do every day. That 
doesn't mean we like it. I mean, we are not perfect, we make 
mistakes, but I think we are adaptable because of the men and 
women that serve in our services are really smart and they are 
mission oriented and they figure out a way to get it done and 
everybody is, you know, hedging or whatever they are doing, but 
the bill is in the back end.
    And the people we are contesting right now, they don't have 
armored forces, they don't have electronic warfare, they don't 
have an Air Force, they don't have long-range artillery, they 
don't have the ability to jam space and deny our networks. That 
is who is out there potentially in the wings and that is what 
we are trying to get at.
    And, you know, the force, we are a volunteer force. Or 
maybe more accurately, we are an all-recruited force, and it is 
expensive. And in order to continue to recruit, you have to 
have the capability that they think they can have the 
opportunity to be successful against these other threats. And 
we can assume that it may or may not happen; that is not my 
job. My job is to manage risk and provide best military advice.
    So we need stability, we need to be able to plan, we need 
to know, whatever the number is, whatever the number is, and 
then we will go forward. But the force has to have confidence 
that they are going to have a continued resource stream for the 
capabilities they need to train and to be operational and for 
their families and for all those things you have to have with 
an All-Volunteer Force.
    Mrs. Davis. Thank you.
    Right now we actually have a hiring freeze, a Federal 
hiring freeze. And is that contributing to degraded readiness? 
And in what way?
    General Neller. I would say, I will just go up and go back 
the other way, but we have had pretty good luck because of the 
parameters and the guidance that was given as far as we could 
get a waiver for those jobs on the civilian side that were 
directly affected, affecting readiness, maintainers, people 
that are involved in certain things. It is not perfect and it 
has caused some problems, particularly in the non-appropriated 
side. And sadly, the people that were mostly hurt by that were 
a lot of family members who worked in those organizations where 
we couldn't get a waiver.
    But we have worked through it, and we have got good 
reaction from Secretary Stackley and Secretary Mattis and the 
Department to fill those jobs. But it was just another thing 
because, as you know, ma'am, it takes time to fill those jobs, 
particularly if they involve a security clearance.
    The Chairman. If the others of you have comments, if you 
would submit them in writing, too, we will try to keep as close 
as we can to the 5-minute rule because of the number of 
members.
    Mr. Wilson.
    Mr. Wilson. Thank you, Chairman Thornberry, for your 
coordinating this important hearing today on urgent issues to 
American families.
    I appreciate each of you for your extraordinary dedicated 
service to our Nation.
    I would prefer that we were under better circumstances, but 
unfortunately budget uncertainty is an issue that needs to be 
understood by the American people. Your clarity today is very 
much appreciated.
    In South Carolina, I represent over 48,000 enlisted 
soldiers who annually graduate and are stationed at Fort 
Jackson along with the nearby base at Fort Gordon, and the 
nearby airmen at Shaw Air Force Base, the Marines of Parris 
Island, Beaufort Naval Hospital, Beaufort Marine Corps Air 
Station, and the Guard members at McEntire Joint Airbase. South 
Carolina knows and loves our military.
    Your leadership provides young people opportunities for 
meaningful and fulfilling lives while protecting American 
families. Additionally, as a veteran, son of a veteran, I am 
grateful I have four sons that have served overseas in the 
military, along with a nephew in the Air Force who has served 
in Iraq.
    It is for this reason that I am particularly concerned 
about the negative impacts a continuing resolution would have 
on military families, such as deferred reenlistment bonuses, 
delayed family moves from summer to the school year, 
reprogrammed military equipment upgrades with limited training.
    How would each of you describe the real-life consequences 
to military families that a continuing resolution poses on our 
soldiers, sailors, airmen, and Marines? How would this affect 
service member morale, recruitment, and retention? And 
additionally, could each of you provide one specific impact 
that stands apart from the rest?
    General Milley.
    General Milley. Thanks, Congressman, appreciate the 
comment. And in South Carolina, as you mentioned, you got Fort 
Jackson. At Fort Jackson alone on an annual basis we train, we 
recruit, and bring into basic combat training the equivalent of 
the British Army, every year.
    Mr. Wilson. Wow.
    General Milley. At Fort Bragg, North Carolina, or Fort 
Hood, Texas, if you combine both those bases, that is the 
equivalent of the Australian and Canadian armies put together. 
What will happen in your State, in South Carolina, and many 
other States that have basic training, Missouri and Georgia and 
elsewhere? That basic training is going to stop in July. We are 
going to run out of money next month. And then over the 
following 60 days we are going to not have the gasoline, the 
fuel, the ammunition, et cetera. And basic training is going to 
stop.
    And what that will mean is we can't take those basic 
trainees that are already there and then onward deploy them or 
PCS [permanent change of station] them to operational units. 
And we will have to keep them right there at the fort. They 
won't be doing anything, they won't be training, they won't be 
doing anything of substantive value. And then we won't be able 
to recruit and bring in more trainees.
    So if we don't get this budget passed, we don't get the 
supplemental passed, Fort Jackson, and many other forts, for 
all intents and purposes, will be coming to a screeching halt 
for all of the activities and training that goes on there. The 
impact on families will be significant.
    We already cut back on several services throughout the 
Army. And we will continue to have to cut back on more services 
for families, family members. You are going to have to stop PCS 
moves; you are going to have to cancel bonuses. And bottom line 
is you are going to significantly and radically increase stress 
on the force that Admiral Richardson talked about. That is 
going to be throughout all the services. It will be very 
dramatic. It will be very significant, and it is something that 
should and must be avoided, in my view.
    Mr. Wilson. Admiral.
    Admiral Richardson. Sir, before I begin I also have to 
thank you for hosting our nuclear power school down there in 
South Carolina as well.
    Mr. Wilson. Well, that is a bit out of the region so I was 
just trying to include ones nearby.
    Admiral Richardson. Okay, all right. It is not too far.
    Mr. Wilson. No. And see, I would have included Charleston 
Air Force Base too, but I was trying just to stay with the 
immediate region.
    Admiral Richardson. Roger, sir. Well, I only highlight that 
because that is some of these areas----
    Mr. Wilson. We are proud, yes.
    Admiral Richardson [continuing]. Are where some of our most 
skilled operators, our nuclear trainers, our combat aviators, 
you know, those are the folks that will be, you know, they will 
be the first to leave. This is where we talk about competition. 
Competition is everywhere I look. Competition is certainly in 
the security environment around the world.
    But I will tell you, I am competing every day for people. I 
am competing with the public sector, and the pool of qualified 
people to do those skills is small to start with and gets 
smaller every time somebody gets hired by another place.
    And when we talk about 1-month notice to move your family 
and children from Norfolk to Guam in the middle of the school 
year, that is a huge detractor. And that talent will leave, and 
I will lose that fight for people. And it will be the highest 
skilled, smartest, those folks will leave first.
    Mr. Wilson. Thank you very much. And the rest, if you could 
respond in writing, thank you very much.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And gentlemen, I want to thank you all for your testimony, 
but most especially for your service to the Nation. So like all 
of you, I am very concerned about the impact of a CR across the 
board, especially when it comes to something like cyber. So can 
you discuss the potential impacts upon cyber programs, 
particularly those that might be a new start this year, such as 
the persistent training environment [PTE]?
    General Milley, I am going to start with you, as PTE is an 
Army program. But then I would ask the other services to add 
their thoughts.
    Next, for all of our witnesses, also, I remain also 
concerned about recruiting and retaining highly trained cyber 
warriors, especially as U.S. Cyber Command [CYBERCOM] is 
provided personnel from each of the services rather than 
raising their own forces. So the critical role the CYBERCOM 
plays in defending national interests against cyberattacks and 
providing support to military operations is an imperative that 
we obviously cannot afford to lose.
    And how will a CR and other budget gimmickry hamper your 
ability to recruit and retain the best of the best?
    General Milley. Thanks, Congressman. As you rightly point 
out, cyber is a relatively new domain of war, as we refer to 
it, and it is critically important, and significant damage can 
be done to adversaries through the use of cyber. So it is 
really important that we as a military, and the Army is playing 
its role, develop both offensive and defensive cyber 
capabilities.
    For the most part, for the Army operational units, they 
focus on protection of the networks and protection of the 
forces, the defensive cyber capabilities. The impact of the 
continuing resolution means that we are not going to be able to 
finish the facilities at Fort Gordon, which is the Cyber School 
Center of Excellence. It means that the National Guard is not 
going to be able to field their cyber protection teams, their 
defense teams for the National Guard. And we will not be able 
to continue the level of training that we need to do for the 
teams that are already formed in the Regular Army.
    In addition to that, the CR will likely have a negative 
effect on the recruitment of the best talent that we can get 
out there to become cyber warriors. It is a new branch in the 
Army. Thus far we have had great success. We need to continue 
that momentum. A continuing resolution or return to BCA funding 
is going to stop that momentum right in its tracks.
    Mr. Langevin. Thank you, General.
    Admiral.
    Admiral Richardson. Sir, I will just again pile on. We have 
been organizing for cyber for some time now. And that 
organization includes people, the talented people that General 
Milley referred to. And so we have a requirement for 40 cyber 
mission teams that constitute a cyber mission force throughout 
the joint force. And then there is the engineering. We need to 
do the work to engineer our systems to make them more resilient 
against a cyberattack.
    Our latest development in that is to stand up the Digital 
Warfare Office this year on my staff that will work with the 
fleets to enhance our agility in the information domain across 
the board. And it is a very comprehensive program; I would love 
to come and talk to you about it in more detail. But that will 
stop without this funding.
    And also, many of those upgrades, those modernizations that 
I talked about are to enhance our resilience against 
cyberattack, which, you know, as the chief said, the critical 
vulnerabilities. The first shots in the next war, in fact the 
war that is going on right now, is in the cyber domain. The war 
is on there. We need to keep that funding in place.
    Mr. Langevin. Thank you, Admiral.
    General.
    General Goldfein. Sir, I will just offer you some thoughts 
on what this is doing to Admiral Rogers as the combatant 
commander who has been entrusted with the mission of defending 
the Nation in cyber, defending the defense networks, and 
ensuring that we have the talent to be able to do his mission.
    All of us contribute to those cyber mission teams. And 
while we can't go into operational details, this extended CR 
will have an impact on all of our ability to be able to put 
those teams in place and allow him to accomplish the mission 
that he has been given at the very national level.
    General Neller. Sir, I was up at Fort Meade talking to 
Marines at MARFORCYBER [Marine Forces Cyberspace Command]. And 
a sergeant stuck his hand up and goes, ``Hey, Commandant, how 
are you going to afford to keep me?'' I said I don't know if I 
can afford to keep you. What is it going to cost me?
    I don't know if there is enough money out there. We got 
people up there getting offered six figures-plus to leave and 
go work in the civilian side. So we have already made the--we 
close down, we are going to have to treat cyber like special 
operations; once you are in, you are in, because the investment 
is too high to get them trained, they got to stay. But then I 
got to figure out how to pay them or get a contract out of them 
long enough to get a return.
    Obviously, if we are at a CR level, any money for bonuses 
or anything like that, there is a tradeoff for something else. 
I mean, you will find the money, but what are you going to take 
it away from? There are no good choices.
    Mr. Langevin. Thank you all.
    The Chairman. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Thank you all for being here, and thank you for your very 
candid and sobering explanation of what we are facing. Been on 
this committee for a while, and I can remember in years past 
when witnesses came in and just danced around the edges about 
what the consequences would be if we didn't do our 
responsibility the right way. And unfortunately we are seeing 
the results of it now. But understanding in clear and uncertain 
[sic] terms of what it means to each of the branches and to the 
country overall I think is the sobering information we need.
    With that in mind, I want to talk about the potential 
strains on the military and tie in with what you have been 
saying to highlight what I think our most important resource, 
our men and women. So we need the weapon systems. We need the 
modernization. But without the men and women, as you have been 
saying, we have got a real problem.
    Specifically the 177th Fighter Wing in my district 
experienced a CONUS COLA [cost of living allowance] drop of 7 
percent in 2017, compared to 2016. It was cutting paychecks 
this year. While the fiscal year 2017 supplemental funds a 2.1 
percent pay raise for troops, as authorized in the 2017 NDAA 
[National Defense Authorization Act], and by law DOD 
[Department of Defense] must provide this pay raise, unless the 
supplemental is passed, DOD will likely have to realign funds 
from military personnel accounts.
    So, first for General Goldfein, what is the effect on 
service members' pay if a fiscal year 2017 supplemental is not 
passed? Exacerbating the strains they have already experienced 
with such CONUS COLA cuts, how could this affect service 
members' morale, recruitment, and retention? I know it is not 
good, but I would like to hear it in your words. And what other 
personnel issues concern you if we are stuck in a yearlong CR?
    General Goldfein. No, thanks, sir. You know, I will 
piggyback on what General Neller said. You know, when it comes 
to meeting our obligations to our airmen when it comes to pay, 
we are going to meet those obligations. The issue is we are 
going to have to go somewhere in that military personnel 
account to find that money. So it is the tradeoffs that will be 
the issue.
    For example, under a continuing resolution, we have talked 
about PCS moves, right? Moves, change of station. For the Air 
Force, for 5 months of a CR, there will be 13,000 families that 
now will have to be delayed in their moves. Of those families 
that now have children in school, think of all of the issues 
that will go on now to have to delay all of those moves into 
the fall cycle after they have started school. That puts a 
stress on our families that actually can't be quantified.
    When it comes to the last part of your question, which is 
one of my biggest concerns relative to a long CR, quite 
frankly, it is breaking faith with our airmen and their 
families. They have been at this for 26 years now. They will 
stay with us if they believe they can count on us to ensure 
that we take care of them and their families as they deploy. 
They will stay with us if they believe they are given the 
resources to be the very best they can be.
    And so I go back to my point. Pilots who don't fly, 
maintainers who don't maintain, air traffic controllers who 
don't control will not stay with us. So that is why you are 
hearing all of us talk about readiness as our top priority. And 
being able to fund them to be able to get them in the air is a 
key priority for the United States Air Force.
    Mr. LoBiondo. We only have little more than a minute, but 
General Milley, you want to comment on that as well?
    General Milley. Thanks, Congressman. Just very briefly, I 
concur and endorse everything that General Goldfein said. By 
law, we are supposed to do a 2.4 percent pay raise, you know, 
ECI [employment cost index] is how they calculate it, to keep 
pace with inflation, 2.1 percent is built into it. If we go to 
a CR or go to BCA funding, that is going to kill any pay raise.
    Right now, our soldiers, sailors, airmen, and Marines, we 
are reasonably well-paid by global standards. But I want you to 
consider something, that in World War II only 10 percent of the 
United States military was married; today 60 percent of us are 
married and on average there are two children. So you are 
talking about families of four here. If you are a specialist or 
corporal with a family of four earns just slightly above the 
poverty level. There are thousands of soldiers, sailors, 
airmen, and Marines today that still use food stamps. That 
should really get people's attention. And if we don't pass the 
budget with the supplemental, it is going to hurt their pay, it 
is going to hurt other forms of benefits, it is going to hurt 
services, and it is going to crush morale, it will be very 
devastating to morale.
    So, again, I can't highlight enough yellow ink here to get 
the budget and the supplemental passed, because to do otherwise 
is going to have significant negative impact.
    Mr. LoBiondo. Thank you, I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to all 
witnesses for your testimony.
    We have 5 legislative days, not counting today, to get this 
done, so obviously the urgency of your message is, you know, 
very important and, again, we appreciate it.
    Admiral Richardson, I wanted to just drill down a little 
bit on the maintenance availabilities impact of a CR. But 
before I do, I would just like to clarify a point that was 
raised yesterday when General Hyten of Strategic Command 
testified over in the Senate regarding the knife-edge timeline 
the Navy faces to sustain the SSBN [ballistic missile 
submarine] fleet. As he correctly stated, Ohio SSBNs will be 
coming offline starting in 2027 at a rate of one per year, 
which you have testified about many times.
    In order to avoid dipping below 10 SSBNs while the new 
Columbia class comes into service, last December CR we included 
a yearlong $773 million anomaly to keep Columbia moving forward 
with detail design and production this year. Just again, for 
clarification's sake, is that $773 million plus-up that we, 
again, made as a yearlong anomaly adequate to keep Columbia on 
track this year?
    Admiral Richardson. Sir, I appreciate you highlighting the 
forced march that we are on to get that submarine on patrol in 
2031. And this is a program [that has] zero margin and so we 
need every dollar of that for the year to keep that on track. 
There is good news there. The team up at Electric Boat has 
regained track, so our designs are on pace, and I will tell you 
there is no margin in that. And even the fact you highlighted 
going down to 10, that requires pretty much error-free 
operation to maintain the requirements at that.
    Mr. Courtney. Right. So that will be adequate for this 
year, but stable, continuous funding to keep that on track. 
Great, thank you, appreciate that.
    Admiral Malloy, when he was over here earlier this year, 
stated that a yearlong CR would drive the Navy to cancel some 
14 or more ship availabilities. You know, you are dealing with 
a phenomenon over the last couple years of carrier gaps. 
Obviously that would kind of spread into other areas of the 
fleet in terms of performance gaps. And I was wondering if you 
could just kind of highlight that little critical point.
    Admiral Richardson. Yes, sir. I mean, certainly we don't 
just fix the ships just to fix them. We maintain and upgrade 
those ships so they can go forward and do the Nation's 
business, but we need to send them forward fully ready, 
maintained, ready to go, just like your car would be. You just 
wouldn't drive your car without doing the maintenance on it, 
without giving it the gas. And so this will translate 
downstream, the maintenance thing writ large.
    You know, when you can't fly an air wing because the 
aircraft aren't maintained, that just will result in, you know, 
we are not going to send them forward untrained. We are not 
going to send them forward unable to defend themselves because 
of poor maintenance. And so this will result in a smaller Navy 
around the world, longer tethers, less presence, gaps, if you 
will.
    And so, you know, it is a domino effect as well when those 
maintenance availabilities get canceled. Well, all of our, 
particularly the private shipyards, have to adapt to that as 
well. So their workforce is going to have to be cut and those 
people necessarily do not come back. They will find new jobs. 
And so you can see this downward spiral that results.
    Mr. Courtney. And just to follow up the chairman's question 
about what is different this time, again Admiral Malloy seemed 
to suggest that, you know, this is going to happen pretty much 
immediately if the CR is the final outcome.
    Admiral Richardson. Sir, our fleet commanders and 
maintainers are hanging out with their fingernails right now. 
They wanted to take action before because they are at risk. 
Right? There are laws in place here in terms of spending more 
money than you have. And if we don't pass this, it will be 
abrupt. They have extended this as long as they can.
    Mr. Courtney. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General Milley, thank you for your incredible answer to 
Susan Davis concerning the prospects of continuing CRs. Your 
statement that it is malpractice and unprofessional is 
incredibly important, and everyone in Congress needs to hear 
it. We know certainly that members of this committee not only 
understand it, but are the advocates to the rest of Congress to 
try to ensure that it doesn't happen.
    When the last CR came forward, many of you are aware that 
members of this committee refused to vote for the CR unless we 
received a promise from the Speaker that DOD approps 
[appropriations] would move from the House. It did. There is no 
reason, as we look forward to the prospects of a CR, that DOD 
funding should be an exception. There is no reason it should 
not be an exception because we have already passed the DOD 
approps, we have already passed the NDAA. They should 
absolutely just be stapled to whatever is moving forward for 
funding and we certainly are to be advocating that it does.
    But I want to drill down for a minute on what the effects 
of sequestration and a possible CR, General Milley, would be, 
specifically on the Army. Last year, Chris Gibson and I 
introduced the POSTURE [Protecting Our Security Through 
Utilizing Right-Sized End-Strength] Act. The bill recognized 
the importance of ground forces in current and future conflicts 
and, most importantly, implemented a strategic pause in the 
Obama administration's proposed reductions to land force end 
strength level, given future and current threats. It began the 
process of reversing the harmful effects of downsizing our land 
forces as a result of the Budget Control Act.
    Under Chairman Thornberry's leadership, we successfully 
incorporated these end strength increases as part of the NDAA 
for fiscal year 2017. The NDAA provided full funding for 
manning, training, and equipping for these increases. These end 
strength authorizations associated with the fiscal year 2017 
NDAA will allow the Army to begin the process of mitigating 
some of the strategic risks imposed by the Budget Control Act.
    However, we recently heard testimony from the Vice Chief of 
Staff of the Army, and he stated that at today's end strength, 
the Army risks consuming readiness as fast as we build it. This 
leads me to believe that we need to continue to look at ways to 
reasonably continue to grow the Army to minimize the risks 
associated with the current and future operational demands. So, 
a few questions in that regard.
    First, we now know that the President has proposed a 
spending level of $603 [billion] for fiscal year 2018. As you 
know, our chairman has proposed $640 [billion]. Could you 
please tell me what the effects of a $603 [billion] funding 
level in the aggregate would be on rebuilding our military? And 
what is the impact on Army end strength under a yearlong CR? As 
we have continued to try to rebuild, what would the effect of 
the CR be? So those two questions.
    General Milley. There will be lots of impacts. Probably the 
most significant, we have been authorized to move out for the 
Regular Army to reverse the downward trend in end strength and 
to move out to 476 [thousand] by 1 October of this year. For 
the National Guard, we want to stabilize that force and bring 
them to 343,000 by 1 October. And for the U.S. Army Reserve, we 
would like to bring them back to about 197,000 by 1 October.
    A yearlong CR will stop all of that, it will stop the 
recruiting. As I mentioned earlier, it will stop the basic 
training and we will essentially resume a downward trend. What 
does that mean? Operationally, it means that units are going to 
go to the field at less than optimal strength for training. We 
already have units in the field for training in the 60 to 70 
percentile versus what is required of 90 to 95 percent present 
for training. That is a significant degradation in capability 
over time.
    We are going to end up having to, if it is a yearlong CR, 
we will end up having to cancel the National Training Center 
rotations out in California and we will end up canceling JRTC 
rotations. We will also end up canceling significant collective 
training for home-station training for all of the Active units.
    And for the Guard, they are going to have to cancel four of 
their, what we call, XCTC [eXportable Combat Training 
Capability], or significant training events. So training across 
the board, beginning shortly after we run out of money in May, 
looking at June or July, training will be reduced to individual 
squad training.
    Individuals and squads an Army does not make. You have to 
train at the company, the battalion, the brigade, and higher 
levels in order to have an effective force for full-spectrum 
warfare against the type of enemies that are possible out 
there. So it will be very significant across the board, 
Congressman.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Gentlemen, thank you for your impassioned 
plea for money. We know where it is coming from, it is coming 
from all the other things the American public would like us to 
do and, frankly, we need to do.
    Our ranking member spoke to the 30 percent decrease in the 
State Department and what that means. The $5 billion decrease 
in the National Institute of Health research programs for 
everything from cancer to Alzheimer's and the like. So we are 
going to make some choices here.
    You have been told to develop a war plan for ISIS, where is 
that plan?
    General Milley, where is the war plan for ISIS? You were 
supposed to have it done in 30 days.
    General Milley. Yeah, Congressman, appreciate that. I am 
not going to discuss classified operational matters, but I will 
be happy to do that----
    Mr. Garamendi. But just tell me generally, where is the 
plan? Not what it is, where it is?
    General Milley. It has been submitted, and it has been 
looked at and reviewed, and it has been submitted.
    Mr. Garamendi. By this committee?
    General Milley. I don't know that we submit it to this 
committee.
    Mr. Garamendi. No, I don't believe you have.
    General Milley. We submit it to the chain of command 
through the Chairman, through the Secretary of Defense.
    Mr. Garamendi. You got $5 billion dollars, in your 
supplemental you have $5 billion for a war plan that has never 
been submitted to us. You expect us to approve something that 
you have not submitted to us?
    General Milley. Congressman, I am not going to get into a 
discussion of classified operational plan.
    Mr. Garamendi. No, my question was very direct, sir.
    General Milley. I am sorry?
    Mr. Garamendi. Do you expect us to give you $5 billion on a 
war plan that you have not submitted to us?
    General Milley. I would ask that you refer that to the 
Secretary of Defense or the President. We work through the 
chain of command on war plans.
    Mr. Garamendi. That is not an answer to my question, but I 
guess the answer is that you would expect us to approve a plan 
that has not been submitted. Where the money would be spent, 
how it would be spent, where it would be spent. Okay, fair 
enough. That is $5 billion of the $30 billion supplemental.
    You said in this testimony that pay will be reduced unless 
you have the supplemental. But yet in the base bill there is a 
2.1 percent pay increase. How does that work?
    General Goldfein, apparently you would like to answer.
    General Goldfein. Yes, sir. And what we said was that we 
will find the money within our budget to pay that 2 percent pay 
raise. The issue is we will have to make choices and trades 
within the military personnel account to do that. So we will--
--
    Mr. Garamendi. And I think the budget, if I might, sir, the 
budget that we put out, the 2017 appropriation had 2.1 percent 
built into it for the forces that presumably you have, all of 
you have. Are you suggesting that that is not the way we----
    General Neller. No, sir. We are not suggesting that at all. 
The appropriations that came from this body had a growth, for 
example, of 3,000 Marines in a 2.1 percent pay. What we were 
brought here today to talk about would be the impact if we had 
the continuing resolution went through the whole year.
    Mr. Garamendi. And you have spent a good deal of your time 
talking about the supplemental. All four of you did.
    General Neller. No, I believe we have spent most of our 
time talking about the effect of the CR, but I take your point, 
sir.
    Mr. Garamendi. Then we are debating the word ``good deal of 
your time.'' Let us not get into too much detail about how much 
time you spent on the supplemental, but each one of you 
advocated for the supplemental. And we, at least I, have never 
seen how you would want that supplemental to be spent in 
certain key areas. That is not to say it may not be necessary, 
but we are going to have to make some tough choices. And we are 
going to need some detail in order to make those choices.
    General Goldfein, you and I have spent a lot of time 
talking about, do we really need to replace all of our ground-
based strategic missiles in the near term? You know, that is 
about $50 billion. Do we need to do it right now? Or we are 
saying can that be delayed and we can do some of these other 
things that you would like to have us do?
    General Goldfein. Sir, I would submit to you that all three 
legs of the triad, the missile leg, the bomber leg, and the 
submarine leg, the three legs of the triad, were all built to 
build into a specific attribute we were looking for. The 
missile leg gives us the most responsive leg of the triad. The 
bomber leg gives us the most flexible leg. And the submarine is 
the most survivable leg of the triad. And my best military 
advice to you, sir, is that we need all three of those legs to 
be able to do the mission that we have been asked to.
    Mr. Garamendi. I have got 10 seconds. I am not debating 
whether we need it or not, my question is, when do we need it? 
We have to make some tough choices.
    General Goldfein. Absolutely.
    Mr. Garamendi. And in making those tough choices, some 
things may get delayed. We have got to figure out what needs to 
be delayed.
    With that, I am out of time. Mr. Chairman, I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Let me just try to clarify one thing here. I don't think 
there is anything in any legislation where a plan has to be 
devised and given to this committee. I think your 
responsibility is to the Secretary of Defense, his 
responsibility is to the President. And at some point we are 
interested in what that plan is, but I don't think that is 
written in stone that we have to be given that plan at point X.
    General Milley. That is correct. We normally do not submit 
an operation plan for full review to the United States 
Congress.
    Mr. Lamborn. Okay, well, thank you for that clarification.
    General Milley I do want to ask you about a readiness and 
modernization issue. Currently, Fort Carson, which is in my 
district, has a brigade combat team [BCT] deployed to Europe in 
support of our allies to deter Russian aggression. To get the 
BCT ready to deploy, they obviously require reliable, modern 
equipment and training.
    So my two-part question is, if we had a CR, will the next 
brigade combat team out of Fort Carson be able to deploy with 
reliable equipment and necessary training? And secondly, would 
the next Stryker brigade out of Fort Carson be able to go to 
the National Training Center to get critical training before 
deploying?
    General Milley. Congressman, the Stryker brigade you are 
referring to, that is one of the rotations that would be 
canceled, so if there is a yearlong CR that unit rotation would 
likely be canceled. For the deployment to Europe, we plan on 
fully funding and resourcing units that are deploying into 
Iraq, Afghanistan, and other areas of combat.
    However, the unit that goes to Europe, for example, on a 
rotational basis that you are referring to, they would not get 
their full suite of home-station training prior to deploying 
because of the personnel strength issue that was previously 
discussed, the end strength issue. They would likely not deploy 
at full operational readiness standards that we would like them 
to deploy at. So there would be a negative impact on that 
particular brigade deploying.
    Mr. Lamborn. Thank you. That is very sobering and, to me, 
has national implications and certainly has community 
implications back in Colorado Springs.
    General Goldfein, I would like to ask you a question about 
space. In your written statement, you say that the JICSpOC 
[Joint Interagency Combined Space Operations Center], recently 
renamed the National Space Defense Center, will face critical 
acquisition delays. You also mentioned delays in the new GPS 
ground infrastructure and GPS III. So my question is this: With 
so many military and civilian systems relying on assured access 
to space, and even just GPS is critical for navigation, for 
financial transactions, 2 billion out of our 7 billion people 
use GPS every day one way or another on the surface of the 
earth; what does this mean for security in space and access to 
our space-based resources?
    General Goldfein. Yes, sir. You know, we have been the 
stewards of space since 1954 and we continue to take that 
priority seriously. As we look at the GPS constellation, moving 
forward with GPS III, with the ground-based stations and with 
all of the integration that needs to occur is a priority. And 
so we are managing that very closely.
    The part that we actually haven't discussed here, I think 
General Milley may have referred to it earlier, and that is the 
impact on the industrial base if we don't have a resolution. 
This is an incredibly sophisticated workforce that you keep on 
the books if you are industry to be able to do the business of 
space.
    And so as we jockey the throttle between a CR, a budget, no 
budget, an annual appropriation or not, these industries that 
we rely on to be able to bring that kind of sophisticated 
workforce have got to figure out what they do with them when we 
tell them, well, we are not going to be able to use the 
workforce for next year, but we are hoping we can do the year 
after that. So it has incredible impact on the industrial base 
for CEOs [chief executive officers] out there who are trying to 
manage their businesses. And I will tell you, as the service 
that is working the preponderance of space, that is a 
significant impact.
    Mr. Lamborn. Okay. I want to thank you all for your 
service. And, Mr. Chairman, I yield back.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here. Thank you for 
your service. A special shout out, of course, to Admiral 
Richardson for the time you spent in Pearl and on the USS 
Honolulu. Thank you very much.
    I represent the congressional district that is home to 
PACOM [U.S. Pacific Command]. And we all know PACOM is the 
largest AOR [area of responsibility] among all of you, you all 
know that. And, of course, the concerns, like this morning with 
North Korea, in protest maybe of what is going on in Mar-a-
Lago, they shot off missiles. And we also saw this morning's 
news as to what is going on in Syria.
    Having said all of that, we understand and I, in 
particular, are very empathetic to the fact that you are on a 
CR, but the fact remains. I think, Admiral Richardson, you in 
particular pointed out in your written statement that we are 6 
months into the CR, and irrespective of what happens between 
now and 5 days from now, chances are it may not be anything 
that you want to see.
    The House, I think, has done, as the chairman says, its 
job. It has sent over basically the defense budget or defense 
approps. But having done that, we are in a situation where you 
will be potentially faced with it and historically you have 
been faced with it.
    And, General, I agree with you, it may border on 
malpractice if it were in a civilian situation. But the fact 
remains that is what happens.
    Yesterday where Admiral Richardson sits, we had Under 
Secretary Flournoy. And former Under Secretary made a statement 
that one of the things that she thought was necessary was a 
flexibility in your individual abilities or defense's abilities 
to move funds.
    So my question to each and every one of you is, we can all 
agree we don't like it, we don't like the situation you are in, 
but the fact is you are in that situation. I would like to 
understand what you all do to make things work. I mean, I am 
envisioning someone in the back room with a little pencil 
saying it is another month, Admiral, or another month, General, 
so we are going to have to move money here and there if we are 
going to do X. I assume you have the ability to do that. And if 
you don't have the ability to do that, I would like to know 
what will make it better so that you compensate for that.
    And like I said, we all can see CR is not good, but we are 
6 months into it. And even if you were to get what you want, 
you still have 6 months that you had to have done something and 
made it work. So with that, whoever wants to take a stab.
    Admiral Richardson. Ma'am, I will lead off. The first part 
of the deal was that everything that we have requested, 
particularly in the supplemental, would be executable in the 
remaining time. So, you know, the 6-month period of time is 
that.
    And, as I mentioned earlier, we--we have been doing all of 
that adjustments that revisit and re-revisit to a tremendous 
waste of time and energy by our leadership as we navigate 
through the shoal waters of just continuing budget 
unpredictability, instability, and insufficient levels. But for 
this year, we are out of creative space.
    Our fleet commanders, Admiral Swift out there in Pearl 
Harbor as well who runs the fleet for Admiral Harris at PACOM, 
he and his colleague, Admiral Davidson in Norfolk, they are out 
of options. They have stretched it to the breaking point on the 
faith that we will be able to do something to be able to fund 
the rest of the year.
    And so I share that faith that they have. This is not a 
fait accompli, we can do the right thing, get your military out 
so we can defend the Nation, can provide the flexibility and 
protection for all the other things to happen. I am just not 
ready to concede that this is the new normal.
    General Goldfein. Ma'am, if I could add that so here is the 
sandbox for a service chief: capability, capacity, readiness 
and we make strategic trades. And so I mentioned earlier that 
part of 2014, the world was different. And so as we were making 
trades, I can tell you in the Air Force we actually traded 
capacity and readiness to get capability, to modernize for the 
future. Then the world changed. And so we have to relook at 
that balance and make different kinds of trades.
    When we are then limited or restricted congressionally or 
legislatively to be able to work within that box to be able to 
make those trades, it makes our job even harder because what we 
owe you is the best Air Force, Navy, Army, Marine Corps that we 
can give you for the money that we are given. And so that is 
what happens.
    I will give you one quick example. So we got additional 
acquisition authorities, we have used those acquisition 
authorities to be able to look at a weapon system that we can 
procure at a faster rate. We get in a CR, anything that falls 
in the new start category we are going to be stopped. So 
modernization is future readiness, and so that is one example 
of when we get legislative restrictions of our ability to move 
within that sandbox, it is hurtful.
    Ms. Hanabusa. Mr. Chair, I am out of time. Could we ask 
that it be submitted for the record? Thank you.
    The Chairman. If the other witnesses have other comments, 
absolutely.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thanks so much for joining us, thanks for your 
leadership.
    I think it is unfortunate we find ourselves in a situation 
where we hear this familiar refrain and that is the uncertainty 
of resources coming forward. And what you all have done to 
accommodate that leaves you at a place where you have no 
flexibility to do the job that we ask you to do. Whether it is 
the OPLANS [operation plans], whether it is the national 
defense strategy, we are now stretched to the limit. We are 
there at this point, I think, that begs the question, what is 
the collective impact of this line of CRs or the sequester? I 
talked earlier about time is now one of our adversaries because 
we lose time with these things. When we have a CR and the 
things that we can't do and we redirect dollars, as you should, 
to training, to developing readiness, but that takes away money 
from programs where we are trying to modernize, we are trying 
to keep up with our adversaries. And then there are additional 
costs. So when you try to catch up later, you never catch up 
timewise and it is more expensive to do that later.
    Admiral Richardson, give me your perspective on the impacts 
of this roller-coaster ride of uncertainty and where it leaves 
you, whether it is postponed ship availabilities, whether it is 
lack of training for pilots, where does that leave you? And 
what is the overall long-term impact both of time that we lose 
and of additional costs to regenerate that in the future?
    Admiral Richardson. Sir, if I could, how about if I phrase 
my answer in the positive and talk about what could be done if 
we pass this budget with its supplemental. I will run down as 
quickly as I can a fairly extensive list.
    First, we will keep the USS Ponce forward deployed, on 
station in the Middle East. We will retain five cruisers 
deployable, we will buy repair parts, ship spares, consumables, 
we will fill those coffers. We will fund the 14 availabilities 
for submarines and surface ships that were talked about 
earlier. We will fund 14,000 flying hours for tactical 
squadrons and we will fund 27,000 flying hours for student 
pilots. Our aviation spares, which have been a big contributor 
to the reduced readiness of aviation, will be funded.
    We will upgrade our afloat and ashore networks to improve 
their cybersecurity. We will add 15,000 moves and increase the 
lead time for those moves to 2 months or more, from 2 months to 
4 months. We will do material improvements to six airfields, 
five piers, three hangars, a communications center, and other 
facilities. We will do security improvements, physical security 
improvements to our bases. We will buy more Tomahawk missiles, 
more rolling airframe missiles, more ship-to-shore connectors.
    We will complete the--the fiscal year 2016 DDG [guided-
missile destroyer]. We will keep on track the aircraft carriers 
CVN-80. We will keep on track two aircraft carrier overhauls. 
We will keep on track LHA-8 [amphibious assault ship], the 
TAO(X) [new replenishment oiler] program. We will complete a 
destroyer, four LCSs [littoral combat ships], LPD [amphibious 
transport dock] and other expeditionary ships. The list goes on 
and on. This is what we can do if we pass that budget with its 
supplemental.
    What a list that is. And this is just the Navy. The joint 
force, each of my comrades here, my colleagues, has a list just 
like that. And so you flip the coin on its other side and all 
of those things will not get done. And that divot will be felt 
for decades in the United States Navy.
    Mr. Wittman. Very good.
    General Milley. Let me make a brief comment.
    Mr. Wittman. General Milley, yes.
    General Milley. You know, for two-and-a-half centuries, our 
country has got a long, cyclic history of unreadiness for the 
next conflict. When they fired the first shot at Lexington, 
they had no idea they were entering into an 8- or 9-year war 
with the greatest power of the day. We weren't ready for the 
Civil War. Lincoln thought he was going into a 90-day conflict 
to put down a local rebellion.
    And we sent guys off with wool uniforms to Cuba or into the 
tropics. World War I, which we are in the 100th anniversary of 
World War I right now, that army was fighting a Pancho Villa on 
the Mexican border 2 years after the war started. And we 
entered into it in 1917, Pershing takes those soldiers over 
there, they are in a state of unreadiness when they get there. 
And he has to train them for 6 or 8 months in France before he 
commits them to the ground combat. World War II, it is well 
known, right after Pearl Harbor, 1942. Go look at the history 
of 1942.
    Mr. Wittman. Yes.
    General Milley. Look at Guadalcanal, Tarawa, look at the 
naval battles in the South Pacific. My father fought in the 
central Pacific, 1942 was a disaster for the United States 
military in the Pacific. And it was a disaster in North Africa 
at Kasserine Pass. Look at June 1950, Korea, yet again where we 
were completely in a state of unreadiness, where Task Force 
Smith deploys with two squads out of a platoon, two platoons 
out of a company. Maintenance and equipment that didn't work, 
soldiers that weren't adequately trained.
    The ultimate impact of all of this stuff is cumulative and 
it results in failed battles, lost battles, and dead soldiers, 
sailors, airmen, and Marines on the battlefield. That is what 
this ultimately results in.
    Mr. Wittman. Very good. Thank you, General.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr Chairman.
    I want to thank General Goldfein for bringing attention to 
the downed F-16 at Joint Base Andrews; it is in my district. 
Glad to hear that no life-threatening injuries to the pilot, no 
reported injuries on the ground. Obviously it is early. 
Investigation will reveal the cause. But I am confident that 
with greater resources we do reduce the number of aircraft 
incidents that are related to either human error, training, or 
maintenance.
    So this is yet just another example of the need to continue 
to invest in readiness, modernization, and in the men and women 
to do the difficult work that we ask them to do.
    Look, I was on the USS Nimitz last weekend and I looked at 
those sailors, average age is 23, we ask them to do things that 
few Americans want to do today. It is dangerous, it is 
important, they are excited about it. A big majority of those 
sailors, first deployment and the first time that they were 
working with one another, but they are confident that they are 
going to be able to do the job that we ask them to do.
    And I said to them and I wanted to reassure them that 
Congress recognizes that we are a great nation because of the 
work that they do. We are the most prosperous nation in the 
world, not just economically, culturally, our democracy, our 
religious tolerance, because of the work that men and women in 
uniform do. So we owe it to them to invest in the work that 
they do, but we also owe it to the country to ensure that we 
continue to be prosperous by investing in good schools, safe 
neighborhoods, a clean environment, and health care and there 
was no debate on that. And Admiral Byrne, who is doing a great 
job on the USS Nimitz and that strike group, he gets that as 
well.
    So you are doing a great job, I appreciate what you are 
doing. Here is my question and it has to do with BRAC [base 
realignment and closure]. Because as we are looking, you know, 
for all different ways to resource what we need to do, to find 
the resources, the assets, the equity, the funding, here is my 
question. The acting Assistant Secretary of Defense for Energy, 
Installations, and Environment testified about a few years ago 
that a future base realignment and closure round will cost 
about $6 billion to implement and result in $6 billion in 
initial savings and then $2 billion per year.
    The Army and the Air Force in particular have been arguing 
that maintaining excess basing capacity diverts scarce 
resources from maintaining readiness and mission capability to 
maintain an unneeded infrastructure. If a new round were to be 
authorized, how would you reduce excess infrastructure and 
balance of force? And given the potentially significant upfront 
cost to implement a BRAC round, what other ways, if any, exists 
that would permit you to dispose of excess capacity at a 
potentially lower cost?
    General Milley. For the Army, we do have excess capacity to 
the tune of about half a billion to a billion dollars that we 
would gladly try to shed if we could. And at the same time, we 
have failed and failing infrastructure out there, about 22 
percent, 33,000 facilities across the entire Army throughout 
the world that are in really bad shape that need work.
    A continuing resolution or a return to BCA funding is going 
to stop the progress we are trying to make against that 22 
percent of our facilities that are in bad shape. And obviously, 
it is going to prevent any sort of BRAC, which we would 
encourage, so we can get rid of the half a billion to about a 
billion dollars worth of unneeded infrastructure that we have.
    General Goldfein. Sir, I will just add that, you know, when 
we talk BRAC we tend to focus on the C and we don't spend 
enough on the R, the C being closure, the R being realignment. 
And quite frankly, for the Air Force, it is as important for us 
to have the flexibility to realign as it is to talk about 
closure. And quite frankly, to General Milley's point, you 
know, when I look through this lens, I look more at the 
infrastructure I have right now and ensuring that we have a 
budget that allows us the MILCON [military construction] 
dollars to be able to improve what we need, not only to bring 
on new mission, but to fix dorms, you know, that are World War 
II era, to get the facilities that we need, to be able to 
demolish those things that we don't need and bring our 
footprint in, so we are not having to spend these precious 
dollars on keeping large installations not only open, but 
keeping all of those buildings continually be run, right, when 
I don't actually need them given the size of the force.
    So for us, you know, this starts with why we are here, 
which is to talk about, first and foremost, getting a budget so 
we can get into our military construction projects and our 
modernization that we need and our restoration that we need. 
That, to me, is far more important than a discussion about a 
future BRAC.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Goldfein, good to see you again.
    Most Americans would be surprised to learn that the average 
age of an aircraft in the Air Force today is 27 years old and 
that some fleets like the JSTARS [Joint Surveillance Target 
Attack Radar System] are nearly 50 years old. How would a 
yearlong continuing resolution affect the Air Force's ability 
to recapitalize these 50-year-old JSTARS aircraft?
    General Goldfein. Hey, sir, thank you. And, you know, you 
are right. About 48 years average that these JSTARS aircraft 
are being used. And as the air component commander deployed 
forward, working in CENTCOM [U.S. Central Command], you know, 
we often talk about what we do with these aircraft relative to 
the ground fight. But I will tell you, they are as equally 
important to the maritime domain and what we do for Admiral 
Richardson and his forces as well. So these are critical 
aircraft.
    Right now, a 5-month continuing resolution would delay the 
contract vehicle that we are working on, the risk reduction on 
the radar to be able to move that forward. And it is not a 
linear. We don't just pick it up again because, again, back to 
industry, if we go back to industry, they are going to have to 
manage that workforce and that workforce may walk. And so when 
we pick it up again, there is no telling what the long-term 
impact of delaying our ability to recapitalize that critical 
weapons system.
    Mr. Scott. General, I am also concerned about the loss of 
the weapons system when they go in for, I mean, they are going 
to be overdue for major depot overhauls and then they are not 
going to be in the air flying. And it certainly seems to me 
better to put that money into new aircraft with new technology 
than to rebuild 50-year-old planes.
    General Goldfein. Sir, that is what we are trying to do. 
And you made a point about the maintenance. The civilian 
workforce----
    Mr. Scott. Yes, sir.
    General Goldfein [continuing]. Who are the ones that are at 
our depots who keep these much older aircraft flying are the 
ones that are impacted the most personnel-wise from a CR. And 
so you lose literally hundreds of man-hours of being about to 
get the depot maintenance on these older aircraft to keep them 
airborne.
    Mr. Scott. Yes, sir. And I hope that you all maintain that 
position that you do not want a CR.
    General Milley, congratulations on the pistol, long 
overdue. That is the first time I have seen you laugh.
    You state in your testimony that over 80 percent of the 
U.S. military forces in Iraq, Syria, and Afghanistan are U.S. 
Army soldiers. Building on what General Goldfein has stated 
today about the impact of the continuing resolution on the Air 
Force, how would the constraint on heavy lift and combat 
support aircraft impact your piece of the fight against ISIS?
    General Milley. Well, frankly, the Army is dependent and we 
are all dependent on each other, as General Neller said 
earlier. With respect to heavy lift, I mean, the Army can't get 
to the fight without the Navy or the Air Force. Just can't get 
there. Our people and equipment doesn't arrive at the point of 
decision without the transport capabilities of the Navy and the 
Air Force. So it will be significant if the Air Force doesn't 
have that kind of capability. So we are a big advocate. We in 
the Army are a huge advocate for the Navy, the Air Force, and 
the Marines who are on the ground with us. It is a joint fight.
    And I as a soldier, I want the most unbelievable Air Force 
the world has ever known because a soldier's best friend is 
when a fixed-wing Air Force pilot is showing up in his aircraft 
when we are in contact. And that is the first call we all make 
is to the United States Air Force or Navy or Marines, whatever 
aircraft is flying around there, or an Army attack helicopter, 
to come to us to make sure it is an uneven fight on the ground. 
So I want the best Navy, the best Air Force, the best Marine 
Corps as the Chief of Staff of the Army. It is a single joint 
fight.
    Mr. Scott. Could you reiterate the impact, if we don't get 
the $5 billion for the urgent operational requirements for 
Iraq, Syria, and Afghanistan to counter ISIS and the additional 
intelligence, surveillance, and reconnaissance, could you 
reiterate your points on the consequences to our deployed 
forces in those areas and our operational mission if the 
supplemental is not passed?
    General Milley. Candidly, Congressman, I would like to do 
that, but I would like to do that in a classified session to 
talk about specific operational impacts. What I would say just 
here is it would be negative.
    Mr. Scott. Yes, sir.
    General Milley. And it would be unhelpful to the ongoing 
efforts.
    Mr. Scott. Gentlemen, I want to thank you all for your 
service, and I hope that you will continue to maintain the 
position of no CR. This has gone on way too long. Thank you, 
and God bless you.
    I yield back.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you, Mr. Chairman, Ranking Member Smith.
    And I thank all of you for your testimony today and being 
here and we know how detrimental the continuing resolution is 
to everyone's ability to plan, prepare, and do long-range 
strategic planning, not just in our military, but in every area 
of our Nation. That affects all of us in the country, 
worldwide.
    But I want to ask General Goldfein a question. Of course, I 
represent Nevada's Third District. Nellis Air Force Base is 
just a few miles outside my district, and, of course, it is one 
of our main combat training exercises, the Red Flag, right 
there, very important to us, very important to you. And so we 
are designed to provide our pilots with their first 10 combat 
missions prior to actually flying in combat there. So is Red 
Flag going to be included in the stand-down under a continuing 
resolution this time?
    General Goldfein. Yes, ma'am. I think what you have already 
heard from us is that one of the first things that will go, as 
we look at where we have to go for the money, like for the Air 
Force. Where do I find $2.8 billion? One of the first places I 
have to go is to cancel exercises. So I have got airmen right 
now that are actually scheduled to deploy, that are scheduled 
to come to Nellis to do their first 10 combat missions in that 
unmatched training environment, that will not go do that 
training.
    They are still going to deploy, we don't stop the 
deployment because that is what the Nation calls on us to do, 
we just go less ready. So we are all going to end up canceling 
rotations at National Training Center, at Fallon, at Camp 
Lejeune, and clearly at Nellis.
    Ms. Rosen. So you would say the impact of a continuing 
resolution impacts human lives, obviously, the lives of our 
soldiers and it will impact the lives of their families because 
we are not able to pass a budget?
    General Goldfein. Ma'am, I will share a very personal 
story. So, you know, Captain Goldfein, day one, Desert Storm, 
never been into combat, we had one guy in the whole formation 
that had been into combat in Vietnam, and we all went across 
the line. And I remember the first time I heard triple-A, you 
know, anti-aircraft [artillery], right, 2:00.
    Ms. Rosen. Right.
    General Goldfein. And we all looked and then I remember 
hearing, you know, SA-2, left, 10:00, and we all saw our first 
surface-to-air missile. And then I remember hearing splash, 
MiG-29, and I was in the formation, and I saw a MiG-29 hit the 
ground. And I remember that moment in my cockpit. And I 
remember the confidence that came over my cockpit because I 
realized I have seen this before, I have heard these radio 
calls. I have actually seen Smokey Sam simulators simulating 
triple-A and surface-to-air missiles.
    Never seen an airplane hit the ground before, but I have 
heard this, I have been in this environment before. And you 
can't imagine the confidence that came over my cockpit and all 
of those that were flying that day that said we have been here, 
we can do this mission, and we went in and we crushed it.
    So what Nellis provides is confidence in the air and 
confidence under fire, and so it concerns me that we are not 
going to give that training to our young men and women.
    Ms. Rosen. Well, I think we know that from everything we 
do, the more training you have, the more muscle memory you 
have, the better able you are to execute your job, no matter 
what it is.
    Admiral Richardson. Ma'am, if I could also just pile on. 
There is a great responsibility we have to do things different 
and better as well. We can't just do--keep doing the same 
things for the same cost and expect to be effective.
    Ms. Rosen. Right.
    Admiral Richardson. And Nellis and Fallon and our training 
ranges, that is where that development is done, that is where 
we experiment, that is where we learn the new ways to fight, 
more effective ways to fight, more efficient ways to fight. And 
so it is not just, you know, going out and doing sets and reps, 
this is learning how to fight in the future. It is extremely 
important.
    Ms. Rosen. Well, I thank you for your service and I, for 
one, don't want to send one more service member into battle 
unprepared. Thank you.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being with us today.
    You know, in budgeting decisions, we don't get to decide 
ourselves here in this committee, it is beyond us. And I just 
don't know how many of our members sometimes really dwell on or 
understand the details and the difficulty that goes into 
running an efficient and effective military. And when we are in 
this discussion today, it is probably the most grave I have 
heard since I have been here and rightfully so.
    And I know that each of you look at your troops as part of 
your family and that is what makes this even tougher to think 
the environment that you are being asked to be put in and your 
family members being asked to be put in. We have touched a 
little bit about what happens to those next to deploy; they may 
deploy, but they are not going to be as ready as they should 
be.
    And I also would like to hear from you, if we could, on the 
consequences of those that are currently deployed in Iraq, 
Syria, Afghanistan, and what is going through your mind if we 
find ourselves in the situation that may happen, which we do 
not want.
    And I will start with you, General Neller.
    General Neller. As we have all said, we will make trades. I 
mean, I think we are pretty flexible, we are all in learning 
organizations and as much as we don't like the fiscal situation 
we have been in, you know, we are mission oriented and we 
figured it out. But I think, at this point, what you are seeing 
is those that are forward deployed have got the best gear, they 
got the best part support, they got the best training we can 
give them. The next ones out the door, then, and it goes down 
from there.
    But because of the security environment that we see, the 
folks that just came back, if you would, the people on deck, or 
actually in the hole in the dugout getting ready to run out on 
the field, those are the ones that are going to end up getting 
the shorter end of the stick.
    I mean, there is normal level and rhythm of a force and how 
you train it. But if we have to make cuts, for example if we 
had a CR as opposed to the budget that you have all passed, 
that is an $800 million delta for the Marine Corps, $500 
million on the ground side, $300 million on the air side. So 
those that are in the dugout, in the hole, if you will, they 
are the ones that are going to take the hit.
    And then when they get on deck, you will be chasing 
yourself, to try to catch up, to get the reps and sets you need 
and the time is not there. We just don't have the time that we 
used to have. So that is the risk, that is the risk. And that 
is just in today's fight.
    If you go to one of the other adversaries that we have all 
talked about and we continue to maintain the current ops, those 
are the ones that are going to have to go there, or you are 
going to have to shift the force. So that is the risk that we 
have all talked about.
    General Goldfein. Sir, I would also add that, you know, we 
have all had a lot of time deployed forward and a lot of time 
deployed together. And when we would do our battlefield 
circulation and talk to our soldiers, sailors, airmen, and 
Marines, we would always most of us get the same question, 
okay, exactly what are we doing here? And we could all give 
that speech.
    The hardest question to answer was, why isn't anybody 
talking about it back home? Why are we all completely focused 
about it here forward, but nobody is focused on it back home? 
That was the hardest question to answer as a commander in the 
field.
    So my concern, in terms of those who are deployed forward 
right now and for their families, is they are going to ask the 
question, are we serious about this or not? Is their risk going 
forward worth it or not? And I am not sure, if we don't even 
pass a budget, we can look them in the eye and tell them that 
what they are doing forward is on the minds of this Congress.
    Dr. Wenstrup. I appreciate that, General.
    Admiral.
    Admiral Richardson. Sir, I will just--one word is 
munitions. That is how the forward force will be affected. 
Every one of my strike group commanders that comes back is 
coming back on fumes when it comes to munitions. And this is 
the good stuff, if you will, the precision munitions, the ones 
that we are using for a very good reason. And so I know that 
General Milley feels that same shortage and that is an 
absolutely critical part of this recovery is the restock of our 
magazines with the munitions we need to prevail.
    General Milley. Congressman, for those that are deploying, 
we try to ensure that they get the maximum equipment and 
training. It is really the bench, as General Neller said. And 
then as Admiral Richardson said about munitions, we are 
critically short, and I am not going to go into it publicly and 
happy to do it in classified sessions, but a discussion of 
munitions is important.
    And for the Army, we actually, I didn't realize this before 
becoming the chief, but we actually make the bombs for the 
aircraft that the Navy, Air Force, and Marines fly. They had 
all the precision stuff, but we make the basic bombs at our 
joint munitions facility for which we are responsible for. And 
next month, we are not going to be able to ship those bombs to 
our sister services for training.
    Operational things will be taken care of, but at Nellis, at 
the different Red Flags, they are not going to have bombs to 
drop. They are not going to have that practice that ``Fingers'' 
just talked about, that General Goldfein just talked about. So 
munitions is critical and the shipping of those training 
munitions is going to cease here in the next month or two.
    And the other thing that we talk about is leader 
development. Missed training, missed opportunities. Say we miss 
6 months of training, that is an entire generation of 
lieutenants and captains that are going to miss training that 
is never going to be made up, sergeants and so on.
    The other piece is, like this summer, we are not going to 
be able to run ROTC [Reserve Officer Training Corps] summer 
camp, or military academy summer camp at West Point. We are 
going to have 74 percent of second lieutenants in the United 
States Army won't get commissioned in fiscal year 2018 because 
they won't be qualified because their summer camp is going to 
be missed this summer.
    So there is enormous amount of consequence in all kinds of 
areas if we go with the continuing resolution or return to BCA 
and we don't get this budget and supplemental passed and 
quickly.
    Dr. Wenstrup. Thank you, General.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Chairman Thornberry and Ranking 
Member Smith.
    And thank you all for coming and addressing us today and 
thank you for your service. Even with a Budget Control Act 
repeal, we would not have a blank check and must prioritize as 
intelligently as possible. While some estimates put costs at an 
additional $1.2 billion per 10,000 uniformed personnel, how do 
you reconcile the need to train and equip the current force 
with a desire to increase end strength?
    General Milley. For the Army, they are interlinked, the 
idea of the readiness of the force, the size, the capacity and 
capability of the force. Obviously, what we want for this 
budget, for 2017, is we want to fill holes. There are already 
holes existing in the forces; not increasing the force 
structure, the increased end strength is not to make the Army 
bigger in terms of number of brigades and divisions and so on. 
It is to make the units that do exist, whole. To make them 
capable of doing adequate levels of training.
    Training a unit at 65 or 70 percent strength is inadequate. 
You take 10 percent casualties in combat, maybe 15 percent, you 
are going to be a combat-ineffective unit. Yet we are training 
on a routine basis units at 65, 70, 75 percent strength at the 
training centers for the high-end collective training.
    So this increase in end strength, I want to be careful that 
it is not mischaracterized as an increase in the Army. It is 
not. It is a filling of the holes in the existing force 
structure, and I think that is an important piece of it, and 
that is how I would reconcile it. We are not increasing the 
brigades and divisions or any of that. We are just filling 
holes in the existing units.
    General Goldfein. And I add, because it is the exact same 
thing in the Air Force. We are filling formations to do the 
mission that we have been given.
    I will also tell you that you need those forces to actually 
achieve the training, to be able to build the time you need and 
the forces you need to support the training we have been 
talking about. And here is how sometimes this gets masked. So 
when I was a younger pilot, and I would show up at the 
aircraft, I would meet my crew chief, the dedicated crew chief 
and the assistant, and we walk around the airplane, and then I 
taxi to the end of the runway and a different crew would be 
there to meet me, and they would pull the pins and arm the 
aircraft and I would take off, and I would go to another 
destination, and a third crew would be there to meet me.
    Here is what often happens when you get to the shortfalls 
that we are seeing right now. Your taxi is slow because the 
same single crew chief has got to get to the end of the runway, 
because it is the same individual that is pulling your pins and 
arming you. And then you have to fly slow because that guy has 
got to get on a C-17 and fly to the next location to be able to 
meet you. That is a vignette of some of the ways that we are 
managing the smaller force.
    So to General Milley's point, this is not about growing the 
Air Force or the Army. This is about filling holes.
    General Neller. I would say for us it is a little bit 
different. This body authorized an increase in 3,000 Marines. 
And those Marines are going to do different missions than the 
183,000, 184,000 are doing today because we have a requirement 
to develop different capabilities that we think we need for the 
future fight. So if that money is not there and we can't grow 
the force, we are going to develop those capabilities, but it 
is going to come out of that 182,000 base. So 3,000 Marines 
that are doing something today are going to do something 
different. And that is going to reduce our capability in those 
particular areas.
    So we have got to grow these new capabilities. Yeah, there 
is going to be some filling of shortfalls in maintenance and 
other places, but ours is different. We have got to build a 
force that is ready to fight what we think we are going to face 
in 2025.
    Mr. Carbajal. Thank you very much. Mr. Chairman, I yield 
back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you to our witnesses for your leadership and for 
your service.
    In my district, which is New York's 21st District, I 
represent two of our Nation's premier career military 
installations: Fort Drum, which is home of the 10th Mountain 
Division, and Kesselring, which is a naval nuclear training 
facility.
    My first question is for General Milley, and it is 
regarding Army's aviation readiness.
    The 10th Mountain Combat Aviation Brigade is currently 
supporting Operation Atlantic Resolve throughout EUCOM [U.S. 
European Command], and I have serious concerns that the CR 
could limit future aviation capabilities and training 
opportunities, like the ongoing deployment of the 10th 
Mountain. Could you describe how a CR would impact the Army's 
aviation readiness, specifically its training, and, on top of 
that, the pilot shortage that the Army is already experiencing?
    General Milley. Thanks, Congresswoman. I appreciate that 
and ``climb to glory'' for the mighty 10th Mountain Division, a 
shout-out to the north country. A continuing resolution or a 
return to BCA would have a significant, negative effect on Army 
rotary-wing aviation.
    We are already short 741 pilots, which we are trying, if we 
can get the budget passed with the supplemental, we are trying 
to make that up. But if we don't get the budget passed with the 
supplemental, we are not going to make that up and that is 
going to increase several hundred more. And that is across the 
entire total Army with the Active, the National Guard, and the 
U.S. Army Reserve.
    For the National Guard specifically, there are about 1,300 
pilot seats available in a given year that won't be available 
in the following year as a result of a continuing resolution. 
Those would be National Guard and Reserve seats. There are 
about another 1,000 seats that might not be available for the 
Regular Army.
    We are going to try to preserve and fence the flying hour 
program, those already qualified pilots that are in units, 
although I must mention that the standard is about 14 hours, 15 
hours a month of rotary-wing flying. We have reduced that over 
the last 8 years, so the new normal, if you will, is something 
around the 12 or 13 hours, but we are going to preserve the 12 
or 13 hours.
    We don't like the new normal, but the flying hours program 
will try to fence that. For units that are deploying, we will 
make sure that they get the appropriate levels of training to 
deploy into combat.
    And the last piece is upgrading the fleet. The continuing 
resolution or a BCA is going to prevent us from putting active 
protection systems for missile defense on the aircraft. We will 
not be able to upgrade some of the modernization efforts that 
we have inside the cockpits. We are going to be short on the 
munitions and Hellfires, et cetera, for the Apaches. And most 
importantly, we are not going to be able to buy the additional 
Apaches we need to fill the holes in the existing force 
structure, for both the Regular Army and the National Guard. It 
will be a significant negative impact on Army aviation.
    Ms. Stefanik. Thank you, General Milley.
    And my second question is for Admiral Richardson. I 
understand the second moored training ship [MTS] requires a new 
start and full funding this year to provide training for 
nuclear operators, and I am asking this question in context of 
Kesselring.
    What is the current status of the second MTS and how would 
a CR create challenges for the Navy if it is not funded and 
allowed to start in fiscal year 2017?
    Admiral Richardson. Ma'am, great question, and thanks for 
your support of Kesselring and everything that they do up 
there.
    There has been a fair amount of talk about a balanced 
approach and that everything that has to do with national 
health and particularly national security doesn't all reside in 
defense. And Kesselring is a great example of that, where a lot 
of that site is supported by the Department of Energy and the 
NNSA [National Nuclear Security Administration]. And so it is 
critical that we understand those relationships.
    And if we are not training operators and developing new 
nuclear technologies up there, we are training them at our 
moored training ships. And the second moored training ship is 
the next generation. Right now, we are using ships that were 
built in the 1960s to do that. They are the oldest operating 
nuclear power plants I think in the country, and it is time to 
recapitalize those.
    This is a new start. There has been a lot of talk about 
funding flexibility. The continuing resolution is the opposite 
of funding flexibility. It is absolute funding rigidity. You 
have to continue to do the things you would like to stop, you 
can't do the things you would like to start. One of the things 
I would like to start is the second moored training ship, and I 
can't do it with a CR.
    Ms. Stefanik. Thank you. I yield back.
    The Chairman. Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman.
    First, let me say I am very sobered and humbled by the 
responsibility that we have listening to your testimony. It is 
really incredible the vocation that you have made with your 
lives and how dedicated you are to this mission that you have.
    I am new to this job. I am formerly a mayor and a county 
executive of a large county with a $2.8 billion budget. I am a 
freshman in the minority and don't have as much influence as I 
would like to have, obviously. But I know that there is an 
important mission that the Congress has, and I really want you 
to know that I am going to do the best I can to communicate 
that we are dealing with people's lives here, the people that 
work for you. And what we do has a tremendous impact on their 
lives. And as you pointed out so eloquently, on their morale 
and on their effectiveness.
    I want to just look at some big picture things. The overall 
budget in 2016 was about $580 billion, and personnel made up 24 
percent of that overall budget, and O&M [operations and 
maintenance] made up 42 percent of that budget. So that is a 
big number, 42 percent of the budget for O&M, and 20 percent 
went to procurement and 13 percent went for other. And it is 
going to be different for each of your services.
    You know, the Army, they might not be procuring as much in 
equipment, for example. But you are all spending about this 40 
percent in O&M. I just want to ask you from a big picture 
perspective, does that make sense that we are spending as much 
as we are on O&M, on operation and maintenance, or should that 
be something over time that we are trying to change?
    So, go ahead.
    General Neller. Well, we are a little bit different. I 
mean, our people account is about 65 percent of our budget, at 
least the green Marine Corps budget is about 65 percent. Our 
O&M, probably about 15 percent. Acquisition and then the 
facilities make up the rest.
    Mr. Suozzi. Now, a lot of your equipment is in the Navy 
though, right?
    General Neller. No, our aviation is naval aviation, but all 
our ground equipment, we own our ground equipment. So, you 
know, we are a small percentage of the overall force. But most 
of our cost is people.
    So I take your point, but if we have people costs or we 
have to increase the size of the force, or the force gets more 
senior or the pay raise that is voted upon, then those bills 
where we have to make those trades and the trades are in those 
other areas, in operation and maintenance and procurement 
modernization or in facilities. And so then you start to build 
up a deficit in those areas.
    And you have got a force that is--that's what a hollow 
force is, is a large force. So there are trades. We can reduce 
the size of the force, we can reduce acquisitions. So those are 
the puts and takes that always go on as we manage the budget, 
but we are probably not a good example of what you are looking 
at as far as a large amount of O&M.
    General Goldfein. Actually, no mystery for an Air Force. 
Older aircraft are more expensive to fly, period. And so what 
happens with us is you get an average aircraft age of 27 years. 
And when I go out and talk to airmen, you know, every once in a 
while I will find somebody who has been driving a 27-year-old 
car, not many. But when you find something like that, one of 
the things they know is they know that that company stopped 
building parts for that car 11 years after.
    So when you are 27 years old, right, there was a Fox News 
special that maybe you saw that had B-1 maintainers that were 
actually cruising museums to find parts to keep those B-1s 
flying. That is what it takes to keep older aircraft flying. So 
when you look at our O&M costs going up, it is because that is 
a direct result of aircraft age.
    And so as we try to procure and try to get that aircraft 
age going down, what comes along with that, quite frankly, is a 
bigger bill than the procurement cost is the sustainment costs 
over the life cycle of that weapon system. So we drive that 
down as much as we possibly can.
    Mr. Suozzi. Admiral.
    Admiral Richardson. Sir, I will just say I think General 
Goldfein and I share that we are a pretty capital-intensive 
force, right? So we operate a lot of stuff and we have to fuel 
it, maintain it, that sort of thing. And so we have got about 
between 25 and 30 percent of our budget in the Navy is 
operations, and I think the general captured it very well.
    Newer things don't require so much maintenance, and so this 
renewal of the force at the end of the day, it helps us do our 
business for less operating and maintenance costs.
    Mr. Suozzi. So for the two of you, as a general rule, you 
know, if you could have the Congress work with you effectively 
and you could get your way over time, would you like to see 
your O&M be a lower percentage of your budget? And where would 
you rather see an increase, in procurement or in personnel?
    Admiral Richardson. I think that both for operations and 
for procurement, stable, adequate funding. That is the way I 
would like to partner with Congress the most.
    Mr. Suozzi. General.
    General Milley. For the Army, we committed about just a 
little bit less than 50 percent for personnel costs, which is, 
you know, no surprise. Cost of labor is Economics 101, and that 
is going to be your expensive factor of production.
    For us, O&M accounts, as you said, just under, in our case, 
just under 40 percent. So what is operation maintenance for the 
Army? It is ammunition, it is fuel or POL [petroleum, oil, 
lubricants] products for the vehicles, flight hours for 
aviation, and, importantly, parts.
    So our O&M costs have gone up in the last couple of years. 
Why? Because we are trying to intensify our levels of readiness 
and training for combined arms operations against a near-peer 
threat. We have been fighting for 16 consecutive years against 
guerrillas and terrorists in tennis shoes with IEDs [improvised 
explosive devices] and AKs [AK-47 rifles] in desert terrain in 
the Middle East. We don't know, no one knows, where the next 
conflict will occur.
    We don't want to be preparing for the last war for the next 
one. So we don't know. We have to keep all the cards on the 
table for the U.S. military to be able to fight a wide range of 
threats. So we have reemphasized combined arms, higher end 
combat, unless you are specifically deploying. That training is 
having a positive effect over the last couple of years, about 
24 to 36 months or so. We are seeing improvements, slightly, in 
our readiness in that regard.
    If we don't pass the budget with the supplemental and we 
continue with the CR or we go to BCA funding, that level of 
training is going to come to a halt and that readiness 
improvement is going to stop. So we need to continue funding 
O&M in order to do that for current day readiness.
    For procurement, in the Army's case, what we have done, we 
have biased current readiness, today's fight and, you know, the 
next couple of years' readiness. And we are really mortgaging 
the future, in terms of our procurement. We only put 20 percent 
of our money into research, development, science, technology.
    Mr. Suozzi. Yes, I saw that.
    General Milley. And we need to improve that.
    Mr. Suozzi. Okay, well, thank you very much, General.
    And again, I know that our mission is to do our jobs to try 
to help you do your jobs. So thank you.
    The Chairman. Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman. And thanks to all of 
you for being here today.
    This body historically has wrestled with these issues since 
we have been wearing tri-corner hats. I am mindful of the Joint 
Committee on the Conduct of the War after Bull Run. The 
congressional investigation of the sinking of the USS Maine and 
how did we let that happen? The Joint Committee on the 
Investigation of the Aerial Attack on Pearl Harbor and what 
went wrong, or the one on the communist attack on South Korea 
and how did we get so surprised.
    These are but a few of the examples, but the story is 
familiar. Service chiefs, given shifting, declining budgets 
that makes the dollars that did arrive less flexible and less 
valuable; endless questions by people like me, in previous 
lives, wondering why so much treasure must be spent when there 
are domestic priorities that demand immediate action, and we 
can eke out savings that will realize all of our dreams.
    Whatever saving that has been realized by this American bad 
habit of unpreparedness, it has been more than horrifically 
compensated for by scores more in spending and thousands more 
of American dead. I don't know, Mr. Chairman, what the next 
committee will be named, but I already know what its 
recommendations will be.
    Mr. Chairman, I don't want to waste any more of these 
warriors' time. We need to give them what they ask for, and I 
yield back.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. And I thank you all for being 
here.
    And I have had 6 years on this committee, and I think this 
is about the grimmest it has gotten. And so clearly, we are not 
addressing these really crucial issues.
    I want to put a little bit of a change in the direction of 
the questioning. I understand, you know, that we are falling 
behind in equipment, et cetera. But I am looking out at the 
world now as they look in on us.
    And I think I agree with you, General Goldfein, that when 
you were talking about people wondering, you know, are they 
talking about it at home? I don't think we are talking about it 
enough right here. I think that what happens is these 
committees are like silos. And everybody is incredibly busy. I 
just ran from another committee hearing, but we have to somehow 
or another address this. So I recognize the urgency, and I 
thank you.
    So what I am looking at right now is, what about the rest 
of the world? Is the conversation going around, you know, in 
your profession? Are friends worried that we are not going to 
be able to keep our commitments or we lack the will to keep our 
commitments? And are our enemies hopeful that we are going to 
just, you know, get so bogged down in this, in our budget 
issues, that we are not going to properly fund?
    And I would appreciate hearing from each one of you on 
that.
    General Neller. I will go first. I think the simple answer 
is yes. Our allies--our strategy is based on our ability to 
build partner capacity and that they are going to be there with 
us if we have to face any of the future challenges. In order to 
do that, we have to be able to show up for exercises, work 
interoperability, do things with them, have them procure 
equipment that is interoperable with us, ideally made by the 
same manufacturers, by American manufacturers.
    We need to make it a little bit easier to be our partner 
across all areas, intel sharing, acquisition, foreign military 
sales. But I think they look to us and they have looked to us 
since the end of World War II when this world was created where 
the United States was the guarantor of peace and stability in 
the world. And whether it be NATO [North Atlantic Treaty 
Organization] or ASEAN [Association of Southeast Asian Nations] 
or any other security apparatus, or the United Nations, they 
look to the United States.
    And so it is important that we as military members go out 
there in the profession of arms, not as Department of State or 
ministry of foreign affairs, we maintain these relationships, 
and that we have to be able to go to our partners and say we 
are going to be there for you. And then they can pass that back 
onto their political leaders, because we occupy a very 
interesting space out there in the international world.
    Ms. Shea-Porter. Thank you.
    General Goldfein. Ma'am, you know, technology changes over 
time, but the fundamentals of deterrence, I would argue, have 
not changed. It is capability times will. And the times is 
important because if either side of those is zero it equals 
zero.
    And so what I will tell you is that we have the luxury, not 
only as Joint Chiefs but throughout our career, of having 
developed relationships of trust and confidence with our 
counterparts around the world. And I can't tell you how 
important those relationships are. We call them mil-to-mil or 
military-to-military. And I think we could all give you 
examples of where sometimes diplomatically we may not have had 
agreements with a country, but our relationships with fellow 
airmen, soldiers, sailors, or Marines are vital.
    And so we keep those long. And very often, to what General 
Neller was talking about, our commitment that brings that 
capability and brings that will is to the relationships that we 
build. You know, this is one of those questions where it would 
be inappropriate to do a big, broad brush over, you know, 
general concerns, because the reality is it is a bit mixed bag 
as you go around the world.
    But I can just tell you that we are committed to making 
sure that we keep those relationships alive and well.
    Ms. Shea-Porter. Thank you.
    Admiral Richardson. Ma'am, thanks for a great question. I 
would say that, and I appreciate you looking around the world 
and directing our attention there as well. You know, in the 
very short term we are in a very unstable environment right 
now. There are a lot of governments coming into place, 
elections, the world is shifting in many ways, including our 
administration as, you know, they settle in, we settle in.
    And in times of great uncertainty, there also is the 
opportunity, I think, for a great miscalculation. And it is 
even more important, in my mind, that during these times of 
uncertainty we minimize that possibility of miscalculation by 
making sure we operate from a position of strength.
    And this strength will assure our allies that we will be 
there and not contribute to that uncertainty, not contribute to 
that instability. And it will also deter our enemies, so that 
even though a period of transition, they will wake up every 
morning and say not today, this is not the day to start 
something.
    And so in the very near term and then I would say in the 
long term, and we can have a different conversation through the 
2020s, we have got to ensure that we operate from a position of 
strength for assurance and deterrence.
    Ms. Shea-Porter. Right. And I will add to that that this 
committee knows our responsibility and we are active in seeking 
the answers and recognizing that we have got to properly fund 
if we want you to do what we need you to do. So thank you.
    General Milley. I would echo my teammates here. Assuring 
allies is critical and we do that through presence, exercises, 
exchanges. Interoperability is important to readiness and 
capability overall with our allies. The United States has a 
great set of allies and partners and friends around the world. 
I believe that is still strong, but we have to continue to make 
it strong.
    And virtual presence is actual absence, so we need to be 
there with them in the air, on the sea, and on the ground. And 
that will help reassure and stabilize various situations around 
the world.
    With respect to adversaries or enemies, you know, 
``Fingers'' hit it on the head. It is capability plus will. The 
capability has to be real. It has to be seen. It has to be 
demonstrated. It has to be sensed. And your opponent needs to 
know that you have the will to use it. If you do that, then you 
will have peace through strength because you will definitely 
deter any rational actor on the other side.
    Ms. Shea-Porter. Thank you.
    Thank you, Chairman, for the extra time. I yield back.
    The Chairman. Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    As vitally critical as our schools, our infrastructure, and 
certainly cures for cancer are--I am a physician and have 
certainly lost my, unfortunately, share of good people to that 
horrific disease--as important as all those are, I think we are 
all smart enough to understand that that makes no difference if 
we don't have a country and national security. So certainly we 
want to, I want to give you what you ask to protect our 
country.
    And, General Milley, when you reminded us that our men and 
women in uniform unfortunately have to still rely on food 
stamps to feed their family, that is both a moral and ethical 
tragedy that I hope makes everyone angry. And we need to fix 
that problem.
    General Goldfein, I want to thank you for--I am a mission 
pilot for the Civil Air Patrol, the Air Force auxiliary, and I 
fly for the Green Flag Program, which you had the foresight to 
actually start, which has been a phenomenal success, giving 
real-time training to our men and women on the ground.
    Last week, we heard from the vice chiefs. We were talking 
about the pilot shortage that you have referenced already, and 
the intellectual property and the institutional knowledge that 
these pilots, you said it takes at least 10 years to train that 
great pilot, and that is certainly true, that with this CR, 
retaining that pilot with what the airlines are now offering on 
the civilian side is almost an impossible task.
    My question is, what other areas of the DOD do any of you 
see where we are losing this intellectual property, this 
institutional knowledge, because of the CR?
    And I will start with you, General Goldfein.
    General Goldfein. Yes, sir. You know, the reality of the 
pilot shortage is it is actually not a military problem, it is 
a national challenge that we have all got to face. And 
Chairman, this is something that I think we need to work 
together, because here are the basics. We in the United States 
Air Force produce about 1,200 pilots per year. The airlines, 
based on their projections, need 4,500 every year for the next 
decade. We are not going to buy our way out of that challenge. 
This is a supply-demand mismatch nationally to be able to 
produce the pilots we need, to service the commercial, the 
business, the private, and the military aviation needs of the 
Nation.
    So first and foremost, we have to have a national approach 
to this that looks at, what are the incentives we can put in 
place to increase the supply going up for the pilots that we 
need to service all of these bins? And then what we need to do 
across the military, I would offer, is to approach it from a 
combination of quality of life and quality of service.
    Quality of life we tend to focus on, which is the financial 
piece and taking that financial burden off of the family. And 
that is important. But I would argue that quality of service is 
equally, if not more important.
    That we have got to ensure that our pilots, our maintainers 
that are getting the resources they need to train, that they 
feel like they can be competitive and the best that they can 
be. That they are part of a unit, that they are part of 
something that is better than themselves. That they know that 
they are in an organization where they are valued, that we take 
care of their families.
    All of the cultural things that go along with wearing these 
uniforms, that is as important as anything we do financially. 
And I would just offer that this is something we have to work 
together, because it is a national crisis.
    Dr. Abraham. Admiral.
    Admiral Richardson. Sir, I will just add on, other areas 
that are under stress just from this competition for people 
that I described earlier, certainly pilots, as we have 
mentioned, our cyber forces are very much under stress. Our 
nuclear-trained sailors are under stress. And our special 
forces have been extremely busy in this war and they are also 
under stress.
    I will tell you, just as we have said, none of these, we 
can't compete in money. And you know what? They didn't join for 
money. I mean, we need to give them adequate resources to live. 
And I think with this bill and supplemental, we will be meeting 
that responsibility.
    But these folks, they joined to sail and fly and operate at 
the high end, become the most lethal force on the earth to 
protect and defend the Constitution of the United States. And 
that is all we have to do is keep that covenant with them and 
they will keep coming. If they start to doubt that, they are 
going to go to where the money is.
    Dr. Abraham. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here and for your service.
    I am rather unique on the committee. I don't serve a 
district that has an Active Duty military base. However, in my 
district in northeast Indiana, we are the proud home of 
Indiana's Air National Guard 122nd Fighter Wing. The men and 
women of the 122nd serve our country with distinction and often 
go into harm's way in service to our Nation, just as our Active 
Duty troops do as well. Yet I am concerned that the prospect of 
a CR will have an even greater impact on our National Guard and 
Reserve forces than the Active Component.
    General Goldfein, while I am dismayed at the prospect of 
yet another CR, can we have some sort of commitment from you or 
what kind of commitment can you make on behalf of your branch 
that a continuing resolution will not have a disproportionate 
impact on our National Guard or Reserve forces?
    General Goldfein. Sir, I can tell you this. I can't do the 
mission without the Air National Guard, period. You go into a 
cockpit of a C-17 today and ask the crew that is in the front 
of that cockpit, okay, who is Active, who is Guard, and who is 
Reserve? I can't tell you the number of times that I have flown 
in C-17s and all three hands go up. You actually can't tell us 
apart. So we, first and foremost, we can't do the mission 
without the Air National Guard.
    So my commitment to you is that this is one Air Force and I 
am their chief. And so I am going to make sure that the Air 
National Guard has everything it needs commensurate with the 
force because we are one Air Force to accomplish the mission we 
are given.
    Mr. Banks. I appreciate that strong statement and 
commitment. Another frequent concern that I hear related to the 
supply chain and spares account that are required to keep our 
A-10s flying is related to the suppliers that are no longer in 
the A-10 business. So can you speak a little bit to how the 
continuing resolution would affect or impact the supply chain 
of the A-10 specifically?
    General Goldfein. Sir, it is not so much that it will have 
that much impact on the supply chain. It will have more of an 
impact in terms of our ability to take those A-10s and put them 
in depot maintenance because that depot maintenance line will 
stop. And it will stop because the civilian hiring freeze and a 
combination of other things.
    I am going to have to figure out, you know, we are each 
going to have to figure out how to pay the bill. Okay? So for 
the Air Force, it is $2.8 billion. To find $2.8 billion, one of 
the things I am going to have to do is stop a lot of depot 
maintenance lines. And the A-10 will be directly affected.
    And it is not linear, meaning at the end of that timeframe 
when we get appropriations, it is not like you just start the 
line back up immediately. Because all those workers have left, 
we haven't been able to hire their backfill, and they have lost 
their qualifications. And so there is going to be a spin-up 
time at the end when we get an appropriation to get those lines 
back up and running.
    So what you have in the middle is a number of aircraft. 
And, oh, by the way, the aircraft that have been flying in the 
fight are coming due for their maintenance, and so it continues 
that backlog over time and what you end up doing is grounding 
aircraft.
    And so while I could buy all the parts in the world, if I 
chose to be able to do that within my flexibility, those parts 
will sit on the shelf because I don't have the workforce I need 
to put those parts in the airplane.
    Mr. Banks. I appreciate the insight. I yield back.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony and your service 
and your leadership and your candor about the impact on the men 
and women in uniform who are putting their lives on the line to 
protect our freedoms. And I really appreciate it. And I hope 
there are a lot of people out there listening and there will be 
a lot of stories about what you said today.
    Admiral Richardson, I want to start off with a story that 
troubled me about a hundred pilots that are essentially 
refusing to fly. Having been a pilot myself, to get to the 
point where you don't trust your equipment and you think your 
life and your student's life is in danger is pretty severe. And 
now, some of that is because of the aging fleet and the 
resource implications that have been discussed today. But it 
sounds like some of it is also a leadership issue.
    So can you please comment on what the Navy is doing to 
address this issue? That is going to be impacting, obviously, 
our readiness, our pipeline, morale, and the lives of the men 
and women.
    Admiral Richardson. Certainly. Thank you for the question. 
And as has been said before, this is the top safety priority 
for naval aviation. It is a vexing problem. And this is not a 
resource-constrained thing. This is an area where we are 
applying every bit of resources we need. Cost is not an issue 
as we approach this problem.
    It, as you said, is directly related to crew safety. And it 
has got the full attention of all leadership in the naval 
aviation----
    Ms. McSally. You are aware that, some of the quotes by 
instructors, that is not how they felt, right?
    Admiral Richardson. Right. Well, so, let me just continue 
my answer.
    Ms. McSally. Yes.
    Admiral Richardson. To address this, we have established a 
dedicated team. And I am going to take a little bit of time to 
step through it because it is complicated. And that team will 
stay on this from a technical standpoint until it is fixed. But 
as I said, it is a complex problem and it requires a 
multidimensional solution.
    First and foremost is the human dimension. And 
communication is a big part of that. And so when we heard about 
the concerns of our instructor pilots in our training wings, we 
sent, you know, a team down there to make sure that we fully 
understood their concerns and they fully understood what we 
were doing.
    I think what we had there, more than anything else, was a 
breakdown in communication. And those teams are on-site now. 
They are working through each of the training wings. And they 
are resolving their differences in perspective and differences 
in communication.
    And so, in addition, you know, from the human perspective, 
you know, the crew and their awareness is going to be the most 
important thing towards minimizing risk here. And so we have 
improved training to make sure they recognize the symptoms of 
hypoxia and related effects.
    We have improved their training on emergency procedures. 
That includes training in simulators where they actually feel 
those effects and go through those procedures. And as I said, 
we are making sure that we are listening and they all feel like 
they can be talking to leadership so we understand where their 
anxiety and concerns are.
    Ms. McSally. Great.
    Admiral Richardson. It is a constant effort.
    Ms. McSally. I appreciate that. I would like to follow up 
more with you maybe after the hearing. I appreciate it and 
would like to stay in touch on the impacts on that side.
    Admiral Richardson. I will make sure we do that.
    Ms. McSally. Thank you, I appreciate it.
    General Goldfein, you have eloquently expressed the 
challenges of a CR and how it is going to impact flying 
operations, saying squadrons will be grounded in June. I don't 
know if everybody who is listening fully understands what that 
means. So even to just localize it for Davis-Monthan, so the 
Bulldogs that I commanded are over shwacking bad guys right 
now, when they come home in the summer they are going to be 
grounded, like, no flying, no upgrades, no training. They are 
done, right?
    General Goldfein. So, ma'am, what I would tell you is that 
if you don't have a unit on your base that is either preparing 
to go, that is directly preparing to go into conflict, you will 
have the equivalent of a no-fly zone over your base.
    Ms. McSally. Yeah, this is unprecedented. I know it 
happened for a little while a few years ago. But this is 
unprecedented in the impact it is going to have. They need to 
be ready to go anywhere in the world on 24 hours' notice, as 
you know.
    Similarly, the EC-130s, they are only the capability in the 
world, and the cross-decking, the training and everything, same 
thing, right? They are done?
    General Goldfein. Yes, ma'am. And so, Congress gave us 
acquisition authorities and told us to use those authorities to 
speed up acquisition. There is no better example than Compass 
Call, electronic warfare asset in high demand in this fight and 
it is going to be a central asset in any fight. So we took 
those authorities and we looked at how could we rapidly take 
the exact same equipment that is on the current EC-130 and 
cross-deck it.
    Ms. McSally. Right. But with a CR?
    General Goldfein. It stops.
    Ms. McSally. It stops, okay.
    General Goldfein. That contract going forward stops.
    Ms. McSally. Red Flags, we talked about Air Warriors, Angel 
Thunder, same thing. Those that are going to deploy to rescue 
Americans in harm's way, their training is done as well.
    General Goldfein. No, ma'am, be very clear, there will be 
no degradation to folks that we are preparing to go into the 
fight.
    Ms. McSally. Okay, I hear you.
    General Goldfein. Everyone is trained to go.
    Ms. McSally. But as you know, that is just-in-time 
training.
    General Goldfein. That is right.
    Ms. McSally. But the cumulative effect of missing out 
training throughout the year does have a degradation, is that 
fair?
    General Goldfein. Absolutely.
    Ms. McSally. And we have got a thousand fighter pilots 
short and you are grounding pilots. And we are expecting them 
to stay? That is insane. You agree?
    General Goldfein. Yes, ma'am.
    Ms. McSally. All right, thank you. I yield back. Thanks.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Gentlemen, great to 
see you.
    I guess let me ask my first question is, how do you 
mitigate the risk of not fighting? And let me give an example. 
Haven't had a naval battle in a long time. I mean, ships 
shooting at ships with cannons, right? We haven't had air-to-
air combat in quite a long time. The places we are at right 
now, we have air superiority. We know how to set up FOBs 
[forward operating bases], we know how to do life support with 
the best expeditionary military since the Romans. I mean, it is 
amazing what all of you do and what our services can do. How do 
you mitigate the risk of atrophy when it comes to facing peer 
competitor countries?
    And I am looking for one word.
    General Milley. Training.
    Mr. Hunter. Training.
    General Milley. That is it.
    Mr. Hunter. All right.
    General Milley. What it is all about.
    Mr. Hunter. That was my question. So it is training.
    General Milley. To follow on Ms. McSally, it is not just 
airplanes that are shutting down training in July. The entire 
Army's training is shutting down except those guys that are 
deploying. Navy, same thing in the Navy and the Marines as 
well. It is across the board. And training is the answer. That 
is how you mitigate it.
    Mr. Hunter. How does training get slammed by the CR?
    General Milley. It stops.
    Mr. Hunter. It stops, right?
    General Milley. Right.
    Mr. Hunter. Yes, what happened with the units?
    General Milley. That is with the OPTEMPO. What happens is 
the OPTEMPO money, the gas, the parts, the ammunition, that 
ceases. And so people still get paid, but there is no training 
going on. So what ends up happening is, is if called upon, this 
is for the bench now, if called upon for some unknown 
contingency that no one can predict right this moment, but if 
it happens, people are going to be going out the door with 
equipment that is less than optimally maintained, units that 
are not properly trained, and we are going to be putting young 
men and women into harm's way that are not ready for that level 
of combat. That is what is going to happen with the lack of 
training.
    Admiral Richardson. Sir, I would just add that also there 
is a lot of that contained in that supplemental.
    General Milley. That is right.
    Admiral Richardson. And so it is the combination of both 
that we need favorable attention to, not only the fiscal year 
2017 budget, but there is a lot of training, operating money in 
that supplemental.
    Mr. Hunter. You both probably have the same answer.
    Mr. Chairman, I just want to thank you for your leadership 
on this. You came out very publicly and said you are not going 
to vote for a CR that is for defense. I just want to just say 
thanks for your leadership on this. We are behind you.
    Thank you, gentlemen. I yield back the balance my time.
    The Chairman. Thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman. And I would like to 
start by thanking all of you very much for your service, for 
being here today.
    Associate myself also with the comments of Mr. Hunter and 
the chairman; I will not support a CR either, in terms of the 
damage that it will do to the Defense Department.
    We are engaged, as you all know, in a whole range of 
crucial issues here on the Hill, issues that affect the Nation 
domestically, health care, tax reform. I would argue that none 
of those is as important as this issue we face today. And if we 
get this wrong, none of those matter either.
    That we are in a situation today, as you have all laid out 
during this hearing, that we have got to make sure that not 
only do we fill the gaps, but that we begin to rebuild our 
superiority. And in that regard, General Keane testified last 
year about the extent to which we are running the risk now of 
not prevailing in a fight in some circumstances.
    And I would like to ask each of you to talk about the 
shortfalls that we face, which you have detailed very 
effectively today, but talk about it in the context of the 
overall threat and as we see our own capabilities decline in 
too many instances, it seems to me we have seen the 
capabilities of our adversaries increasing and advancing.
    And so whether we are talking about ISIS, North Korea, 
China, Russia, Iran, if you could just talk for a little bit 
about the extent to which our declining capabilities have just 
created a gap which may be a gap of historic proportions in 
terms of where our adversaries are.
    General Neller, I will start with you.
    General Neller. I think we have all watched this over the 
last 5 to 6 years as we have been continually involved in the 
daily grind of the counterterrorism fight. We have seen the 
growth of the capabilities of the Chinese, the Russians, the 
Iranians, the North Koreans. On the countering to that is our 
OPTEMPO has stayed high because of what is going on fiscally, 
our ability to modernize and start to train to face that type 
of a threat and develop the capabilities through equipment and 
training and leverage technology. We have made a move. We 
started to do that. It is not like we have been sitting here 
ignoring it, but to get to that point, while at the same time 
do what we do on a day-to-day basis.
    It is the equivalent of rebuilding the airplane or the 
vehicle as you are driving down the road moving toward the day-
to-day efforts. You are trying to rebuild the thing in motion, 
which is difficult enough, but if you don't have the resources 
to do that, and fifth-generation stuff is expensive. It is. And 
we all want to drive down the costs, we all want to get it 
faster, but to do that we need to have adequate resourcing, and 
it has got to be stable.
    We are not going to get a good price point on any of this 
stuff if we can't tell the vendor, okay, we are in for 3, 4, 5, 
6 years because we know we can buy five for the price of three-
and-a-half, or whatever it is, if we can get the money to get 
the long-term contract. So, that is the dilemma we face.
    It would be great if we could stop and get a time-out. 
People talk about, you know, the interwar period; we have had 
no interwar period. We have been since 9/11 at war, and I don't 
see there being an interwar period, which makes it difficult, 
but it also makes it necessary that the resources are there to 
maintain the current fight, but to build up the capability for 
the fight that we hope doesn't come. And if we are ready and we 
have the capability, the probability that it will come goes 
down, but we can't assume that it won't.
    Ms. Cheney. Thank you.
    General Goldfein, could you also talk, I know we are 
focused on the CR, but the Budget Control Act and 
sequestration, as a whole, and whether we really can do what we 
need to do before we repeal those.
    General Goldfein. Yes, ma'am, and I would just tell you 
that one of the things that you have heard from us here is that 
when called to go, we go. We have heard all the impacts of a 
CR. We are going to cancel exercises, we are going to cancel 
training. But let no one question for a second that when the 
United States militaries are called upon, we go.
    And when you take the combined military might, although 
none of us, as Joint Chiefs, are happy with our current level 
of readiness, for those that may be listening ought to have no 
question in their mind that if they take us on they lose.
    I will give you just one example. You know, if Mr. Putin 
makes a bad choice, he will face the combined economic and 
military might of 28 nations in the most powerful alliance we 
have ever been part of, and that spells his loss.
    So we are going to work with you on ensuring that we can 
manage this to the best of our ability. We have been through 
sequestration before, and I think we would all tell you we 
still haven't recovered from that. And one of the worst things 
we did during that entire period when we shut down the 
government was we broke faith with our civilian workforce, and 
especially our young civilian workforce that don't have the 
luxury of 4 to 5 months of pay, you know, in the bank that can 
cover them while they are out of work.
    And we had so many civilian workers, young civilian 
workers, that left the government service because they couldn't 
pay the bills. Or those that didn't pay the bills then had 
security challenge issues because one of the things we look at 
are their financial reports. And they left government service, 
talented young men and women, and never came back. We can't go 
through that again.
    Ms. Cheney. My time has expired, thank you very much. I 
appreciate it. I yield back.
    The Chairman. Thank you all for your time, your testimony, 
and your service.
    You know, the earlier conversation General Milley had, Mr. 
Russell referenced to some historical parallels, reminds me 
that tomorrow, April 6th, is the 100th anniversary of our entry 
into World War I.
    You know, we tend to think about World War II and Patton's 
dash across Europe, Iwo Jima, those incredible battles, but the 
thing about World War I is nobody ever thought it would happen. 
They all traded with each other, the rulers were related to one 
another, and they thought they could out-bluff each other, that 
there might be a skirmish, and yet a whole generation of 
European men were wiped out in World War I. It just, I think, 
should be a sober reminder to all of us about the stakes of 
what we are talking about here. They are incredibly high.
    And I appreciate you all's testimony; as you have heard 
many times, I think it has been sobering.
    The bottom line is we have to do better than that, than 
CRs, than not passing a supplemental, than sequestration. We 
have to do better than that.
    The hearing stands adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             April 5, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 5, 2017

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 5, 2017

=======================================================================
   

                   QUESTIONS SUBMITTED BY MR. BROOKS

    Mr. Brooks. If a high priority is being placed on the fastest 
schedule to field five Airborne IBCTs and particularly the three IBCTs 
with the 82nd Airborne Division who have the Global Response Force 
Mission, why wouldn't leveraging the 70 DAGORs already in the 82nd 
along with the OEM available inventory and production be the most 
expeditious and cost effective way to accomplish this especially given 
it has been certified for Air Drop and Sling Loaded by the National 
Mission Force?
    General Milley. The DAGORs were bought specifically to support the 
Global Response Force requirement in an Operational Needs Statement 
(ONS) submitted by the 82nd Airborne Division. No other ONS exists for 
the remaining Airborne IBCTs. An additional purchase of the same 
vehicle without a validated ONS is prohibited based on regulatory and 
statutory limitations.
    To quickly field this capability, we will procure a limited 
quantity of 295 GMV1.1 vehicles under a directed requirement for the 
Airborne IBCTs thru an existing, competitively-awarded Special 
Operations Command (SOCOM) contract. The SOCOM's Joint Capabilities 
Integration and Development System-approved requirement for GMV1.1 
meets the Army's current requirement as well. This plan accelerates 
delivery of this critical capability by two years--from Fiscal Year 
2020 to Fiscal Year 2018. It allows us to fill an immediate need while 
refining the requirement to support full and open competition for the 
remaining IBCTs.
    This approach is consistent with Congressional intent to find ways 
to accelerate the delivery of equipment to our Soldiers.
    Mr. Brooks. Why is the Army taking on the significantly higher 
vehicle costs and the cost risk for an unknown final unit price with a 
guidance of $260,000.00 Average Unit Manufacturing Cost (AUMC)?
    General Milley. Speed of delivery is our highest priority. The Army 
is willing to pay a higher cost of up to $260,000 to provide the 
initial capability of 295 vehicles to support our Soldiers' as quickly 
as possible. The Army benefits from purchasing the GMV1.1 because the 
vehicle has already gone through testing and logistics development and 
shares the same repair parts system in the Army, all of which save 
time. The remaining 1,700 GMVs will be procured through a full and 
open competition, once the requirement has been refined, which should 
reduce cost.
    Mr. Brooks. Explain the rationale for how the SOCOM GMV 1.1 
requirement can meet the critical parameters of the Airborne IBCT GMV; 
e.g. 9 infantry soldiers and their gear, air droppable, sling load 
capable and 250 miles range or more on vehicle organic fuel tank?
    General Milley. The approved SOCOM GMV 1.1 Capability Production 
Document supports all of the critical capabilities for the Airborne 
IBCTs, except for the 9-seat capacity. The SOCOM program office is 
supporting a contract modification that allows for production of a 9-
seat variant within the scope of the existing production contract. 
Based on test results, the GMV 1.1 is transportable by CH-47 internally 
and externally with 250 mile operational range. The SOCOM program plans 
to complete the air drop test by the first quarter of Fiscal Year 2018.
    Mr. Brooks. Is there a material difference between the Sustainment 
and Maintenance support of the SOCOM GMV 1.1 solution and the 
commercial alternative currently being used by the 82nd?
    General Milley. Yes, there is a material difference. The Army 
benefits from purchasing the SOCOM GMV1.1 because under the contract 
the vehicle shares the same sustainment and maintenance system with 
SOCOM. The DAGOR's were commercially purchased for the specific purpose 
of filling an Operational Needs Statement for the 82nd Airborne 
Division. Because the vehicles are not centrally managed they must be 
maintained by the unit without support from the Army logistics system 
or any additional funding to maintain them. There is also no long term 
sustainment support for DAGOR. The unit must continue to use unit 
training funds to purchase maintenance and sustainment requirements 
directly from a commercial vendor. Ultimately the vehicles will be 
replaced by the GMV which will provide the parts system to support the 
unit.

                                  [all]
</pre></body></html>
